Afp |
Filed 7/2/20

CERTIFIED FOR PUBLICATION
IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION SIX

REXINA MIZE et al.,
Plaintiffs and Appellants,

2d Civil No. B295829
(Super. Ct. No. BC649083)
(Los Angeles County)

v.

MENTOR WORLDWIDE LLC,
Defendant and Respondent.

This case is about preemption and causation:
whether the Medical Device Amendments (MDA) to the federal
Food, Drug, and Cosmetic Act (FDCA) preempt the state-law
products liability claims at issue here, and whether Rexina Mize
and her husband, Minh Nguyen, sufficiently pled causation to
survive Mentor Worldwide LLC’s demurrer to those claims. We
conclude that the tort claims in this case survive preemption
because they are “““premised on conduct that both (1) violates the
[MDA] and (2) would give rise to a recovery under state law even
in the absence of the [MDA].”” [Citation.]” (Glennen v. Allergan,
Inc. (2016) 247 Cal.App.4th 1, 11-12 (Glennen).) We further
conclude that Mize and Nguyen pled the requisite “‘causal
connection”’ between their injuries and Mentor’s tortious acts to

A

Aff. 2survive a demurrer. (Rannard v. Lockheed Aircraft Corp. (1945)
26 Cal.2d 149, 156 (Rannard).) Because the trial court reached
contrary conclusions, we reverse.
FACTUAL AND PROCEDURAL HISTORY1
The Medical Device Amendments of 1976
Since 1976, the MDA has required the Food and Drug
Administration (FDA) to provide “detailed federal oversight” of
medical devices. (Rigel v. Medtronic, Inc. (2008) 552 U.S. 312,
316 (Rigel).) “The devices receiving the most federal oversight
are those in Class III.” (Id. at p. 317.) Such devices include those
that pose potentially unreasonable risks of illness or injury.
(Ibid.) Breast implants are assigned to Class III.
A Class III device must undergo premarket approval
to “provide reasonable assurance of its safety and effectiveness.”
(21 U.S.C.2 § 360c(a)(l)(C).) “Premarket approval is a ‘rigorous’
process.” (Rigel, supra, 552 U.S. at p. 317.) It includes
submission of an application that includes studies of the device’s
safety and effectiveness, a statement of its components and
principles of operation, a description of its manufacturing
methods, samples of the device, and proposed labels. (Id. at pp.
317-318.) The FDA will grant premarket approval “only if it
finds there is a ‘reasonable assurance’ of the device’s ‘safety and
effectiveness.’” (Ibid.) Once it does, “the MDA forbids the

1 The facts are taken from Mize and Nguyen’s third
amended complaint, which we accept as true in our review of the
trial court’s order sustaining Mentor’s demurrer. (Blank v.
Kirwan (1985) 39 Cal.3d 311, 318 (Blank).)
2 Further unlabeled statutory references are to title 21 of
the United States Code.

2

3
manufacturer to make . . . changes in design specifications,
manufacturing processes, labeling, or any other attribute that
would affect safety or effectiveness.” (Id. at p. 319.)
Before obtaining premarket approval, a Class III
device manufacturer may apply to use the device in clinical tests
pursuant to an investigational device exemption (IDE).
(§ 360j(g).) To qualify for an IDE, the manufacturer must submit
an application and investigational plan for the device. (See 21
C.F.R. §§ 812.20(b), 812.25.) The FDA must then determine that
the benefits to test participants and the knowledge to be gained
from the tests outweigh the device’s risks. (21 C.F.R. § 812.30.)
If the FDA approves an IDE application, few changes to the
investigational plan are permitted. (21 C.F.R. § 812.35(a)(1).)
Mentor’s MemoryGel breast implants
In the early 1990’s, Mentor applied for an IDE to
permit clinical testing of its MemoryGel silicone breast implants.
The FDA granted Mentor’s application and approved three
studies: an adjunct study for patients undergoing either breast
reconstruction after a mastectomy or breast implant revision,3
approved in July 1992; a core study, approved in August 1992;
and an IDE study, approved in August 2000.
In 1998, the FDA sued Mentor, alleging that the
company failed to meet manufacturing quality standards,
destroyed evidence of its implants’ high rupture rates, sold
contaminated implants, and failed to comply with FDA-mandated
design and materials specifications. The FDA and Mentor
entered into a consent decree to address the alleged violations,
which required the company to remedy the deficiencies, comply
3 Breast implant revision involves the removal or
replacement of existing breast implants.

3

4with federal law, and adhere to good manufacturing practices. If
Mentor complied with the terms of the decree for five years, the
FDA would not oppose a petition to dissolve it.4
Mize’s breast implants
Two years after the FDA and Mentor finalized the
consent decree, Mize underwent a bilateral breast augmentation,
receiving MemoryGel breast implants as part of Mentor’s adjunct
4 The trial court took judicial notice of the consent decree
and its subsequent dissolution. We grant Mentor’s unopposed
request to judicially notice these documents and all others
properly noticed by the court below. (Rea u. Blue Shield of
California (2014) 226 Cal.App.4th 1209, 1223; see Evid. Code,
§ 459, subd. (a).)
Mentor also requests that we consider several additional
documents that were not presented to the court below: (1) five
documents, other than those cited above, attached to the request
for judicial notice, (2) pages 53 to 558 of the Respondent’s
Appendix, and (3) two documents attached to a declaration in
support of Mentor’s brief on appeal. We deny these requests. As
to the first set of documents, Mentor “puts forth no reason for its
failure to request [that] the trial court . . . take judicial notice of’
them. (Brosterhous v. State Bar (1995) 12 Cal.4th 315, 325-326.)
As to the second, though Mentor lodged these documents with the
trial court, it did not request that the court take judicial notice of
them. They are thus not a proper part of the record for review of
Mentor’s demurrer. (Cloud v. Northrop Grumman Corp. (1998)
67 Cal.App.4th 995, 999 [demurrer “attacks only defects disclosed
on the face of the pleadings or by matters that can be judicially
noticed”.]) As to the third, “documents not before the trial court
cannot be included as part of the record on appeal.” (Pulver v.
Avco Financial Services (1986) 182 Cal.App.3d 622, 632.) We
disregard all of these documents and the portions of Mentor’s
brief that cite to and rely on them. (Ibid.)

4

study. Mize did not meet the study’s criteria because she did not
need breast reconstruction or implant revision. She was unaware
she was participating in the study, and did not know that her
implants had not been approved for sale by the FDA.
After her breast augmentation, Mize began to
experience a variety of health problems, including chronic
fatigue, muscle and bone pain, joint swelling and stiffness,
memory loss, and numbness. Her vision deteriorated, and she
had to get prescription eyeglasses. She lost several business
opportunities and abandoned her music career. None of Mize’s
doctors connected her health problems to her implants.
Premarket approval
In August 2003, a federal court dissolved Mentor’s
consent decree with the FDA. Four months later, Mentor sought
premarket approval for its Memory Gel implants. The FDA
approved Mentor’s application in November 2006. As a condition
of approval, the FDA required Mentor to conduct six studies that
would document the safety and effectiveness of its implants and
answer questions the earlier clinical trials did not answer. As
part of these studies, Mentor had to submit adverse event
reports, either as individual medical device reports that would be
stored in the FDA’s publicly accessible Manufacturer and User
Facility Device Experience (MAUDE) database (for deaths and
unusual adverse events), or as postmarket spreadsheet reports
that would not be included in the database (for well-known or
expected adverse events, including implant rupture).
Mentor failed to properly perform the six studies. It
did not follow up with enough study participants and did not fully
report the myriad adverse events—such as silicone toxicity,
implant removal, autoimmune complaints, ruptures, and

5

App, ip
inflammation—documented in the studies. According to Mize,
the FDA would have included the adverse events in the MAUDE
database had Mentor properly reported them.
The removal of Mize’s implants and ensuing lawsuit
In December 2016, an MRI revealed that Mize’s
breast implants had ruptured. She had them removed the
following month. After their removal, Mize’s mental clarity
improved. She no longer suffered from chronic fatigue, and no
longer needed her prescription eyeglasses.
Mize and Nguyen sued Mentor. In the third
amended complaint, Mize alleged causes of action for negligence
and negligence per se based on Mentor’s negligent failure to warn
and negligent manufacturing, strict products liability for failure
to warn, and strict products liability for manufacturing defects.
Nguyen alleged a derivative cause of action for loss of consortium.
In support of her manufacturing defect claims, Mize
alleged that Mentor: (1) manufactured its MemoryGel implants
in a manner that “differed from the specifications agreed to by
the FDA”; (2) “us[ed] materials and components [that] differed
from those approved by the FDA”; (3) “fail[ed] to follow good
manufacturing practices”; (4) “failfed] to properly meet the
applicable standard of care by not complying with applicable
federal regulations and . . . manufacturing protocols approved by
the FDA”; (5) distributed its implants “in violation of the terms of
the IDE and applicable federal law”; (6) “negligently
incorporated] components and/or materials into its . . .
[i]mplants that could not stand up to normal usage and/or [that]
differed from those [that] were commercially reasonable and/or
fail[ed] to use the components and/or materials approved by the
FDA”; (7) “fail[ed] to exercise reasonable care in inspecting and

6

Aff. n
testing of the product”; (8) “fail[ed] to exercise reasonable care in
its manufacturing, quality control, and quality assurance
processes”; and (9) “was negligent in its recordkeeping and did
not disclose manufacturing flaws.”
In support of her failure-to-warn claims, Mize alleged
that Mentor breached its duty to report to the FDA, as part of the
IDE clinical tests and the six postapproval studies, “adverse
events similar to the injuries [she] suffered” despite having
“knowledge and possession of information” that its MemoryGel
implants were dangerous. Mentor also did not ensure that the
FDA-mandated studies were properly performed and did not
ensure follow-up with enough study participants. “Accordingly,
the information . . . the FDA [sought] regarding adverse events
and device failures was never gathered.” Had it been gathered
and reported, doctors would have seen and relayed it to Mize,
who would have then had her implants removed.
The demurrer
Mentor demurred to the complaint. It asserted that
Mize’s claims were preempted by federal law and insufficiently
pled, and that Nguyen’s claim failed because it was derivative of
his wife’s.
The trial court agreed with Mentor. As to the
manufacturing defect claims, the court found that they were
impliedly preempted because they “hinge [d] entirely on conduct
that allegedly violated federal law.” Even if they were not, the
allegations that underlay the claims all preceded the 1998
consent decree between Mentor and the FDA. But Mize did not
allege that her implants were manufactured prior to the decree.
And if they were manufactured after, the decree showed that
Mentor promised to change any faulty manufacturing practices.

7

To the extent Mize based her claims on Mentor’s alleged
noncompliance with IDE requirements, the complaint did not
specify how that noncompliance occurred, that it occurred prior to
her implant surgery, or how it “affected the manufacture of the
device implanted.”
As to the failure-to-warn claims, the trial court found
them expressly preempted because Mize did not allege that
Mentor’s failure to report adverse events violated any FDA
requirement. Even if she did, to succeed on her claims Mize had
to allege that “if Mentor had reported additional adverse
incidents [after she received her implants in] 2000, and if the
FDA had made such incidents public, and if [Mize’s] doctors had
been aware of such reports, [the] doctors might have provided an
earlier diagnosis leading to earlier surgery to remove the
implants,” reducing Mize’s damages. The trial court found she
did not do so.
The trial court impliedly rejected Mize’s negligence
per se claim since it was based on the same allegations as her
other claims. The court rejected Nguyen’s loss-of-consortium
claim as derivative of his wife’s. It sustained Mentor’s demurrer
without leave to amend.
DISCUSSION
Standard of review
“In reviewing the sufficiency of a complaint against a
general demurrer, we are guided by long-settled rules.” {Blank,
supra, 39 Cal.3d at p. 318.) “‘We treat the demurrer as admitting
all material facts properly [pled], but not contentions, deductions,
or conclusions of fact or law.’” {Ibid.) ‘“We also consider matters
[that] may be judicially noticed.’” {Ibid.) “[W]e give the
complaint a reasonable interpretation, reading it as a whole and

8

Af f, ^
its parts in their context.” (Ibid) Our fundamental task is to
“determine whether the complaint states facts sufficient to
constitute a cause of action.” (Ibid.)
Preemption
Federal law is the “supreme [l]aw of the [l]and.”
(U.S. Const., art. VI, cl. 2.) State laws that conflict with federal
laws are preempted. (Murphy v. National Collegiate Athletic
Assn. (2018)__U.S.__ ,__[138 S.Ct. 1461, 1476].) Preemption
can be express or implied. (English v. General Electric Co. (1990)
496 U.S. 72, 78-79.) It is express if Congress defines “the extent
to which its enactments preempt state law.” (Id. at p. 78.) It is
implied if state law “regulates conduct in a field that Congress
intended the [fjederal [government to occupy exclusively” or if it
“actually conflicts with federal law.” (Id. at p. 79.)
The MDA expressly preempts any state requirement
that: (1) “is different from, or in addition to, any requirement
applicable under [the FDCA],” and (2) “relates to the safety or
effectiveness of the device or to any other matter included in a
requirement applicable to the device under [the FDCA].”
(§ 360k(a).) The MDA “does not prevent a [s]tate from providing
a remedy for claims premised on a violation of FDA regulations,”
however, because “the state [requirements] in such a case
‘parallel,’ rather than add to, federal requirements.” (Riegel,
supra, 552 U.S. at p. 330.) A state requirement parallels a
federal requirement if the two are “““generally equivalent.
(Glennen, supra, 247 Cal.App.4th at p. 10.) But “[i]f state law
liability could be found notwithstanding compliance with the
federal requirements, those state law duties are not parallel to
the federal requirements.” (Ibid.) Claims seeking to enforce
those duties are expressly preempted. (Ibid.)

9

Aff. (0
Alternatively, a plaintiffs claim will be impliedly
preempted if it conflicts with the MDA’s enforcement scheme.
(Buckman Co. v. Plaintiffs’ Legal Committee (2001) 531 U.S. 341,
352 (Buckman).) Section 337(a) provides that “all. . . proceedings
for the enforcement, or to restrain violations, of [the MDA] shall
be by and in the name of the United States.” This provision
prohibits claims that “seekQ to enforce an exclusively federal
requirement that is not grounded in traditional state tort law.”
(Glennen, supra, 247 Cal.App.4th at p. 11, italics added.) Thus, if
an FDA requirement is “a critical element” of a plaintiff s tort
claim, the claim conflicts with the MDA’s enforcement scheme
and is impliedly preempted. (Buckman, at pp. 352-353.)
Together, express preemption under section 360k(a)
and implied preemption under section 337(a) and Buckman
create a “““narrow gap’ through which a state-law claim must fit
to [survive] preemption.’”” (Glennen, supra, 247 Cal.App.4th at p.
11.) The claim must be based on ‘““conduct that violates the
[MDA], but the plaintiff cannot be ‘““suing because the conduct
violates the [MDA].
(Id. at pp. 11-12, original italics.) Thus,
to survive preemption, [a] claim Q ‘must be premised on conduct
that both (1) violates the [MDA] and (2) would give rise to a
recovery under state law even in the absence of the [MDA].
[Citation.]” (Id. at p. 12.)
Manufacturing defect
Mize first contends the trial court erred when it
concluded that: (1) the MDA impliedly preempts her
manufacturing defect claims, and (2) the complaint fails to link
the alleged defects in her implants to her injuries. We agree.
iUii

10

1. Preemption
Mize’s manufacturing defect claims are premised, at
least in part, on Mentor’s alleged failure to comply with
manufacturing requirements imposed by the FDA. But it does
not follow that the claims “hinge entirely on conduct that
allegedly violated federal law,” as the trial court concluded. Mize
does not seek to enforce any exclusively federal requirement; her
claims are predicated on violations of state tort law. (Cf. Jiminez
v. Sears, Roebuck, & Co. (1971) 4 Cal.3d 379, 384-387 [California
recognizes negligence and strict liability claims of manufacturing
defects].) That these tort theories “imposeQ obligations identical
to those imposed by the [FDA] . . . does not substantively
transform [Mize’s] action into one seeking to enforce federal law.”
(Farm Raised Salmon Cases (2008) 42 Cal.4th 1077, 1095.) Her
lawsuit would exist regardless of whether the FDA or some other
federal or state agency imposed the obligations. (Id. at pp. 10951096.) There is thus no conflict with section 337(a), and no
implied preemption under Buckman. (Ibid.; see, e.g., Mink v.
Smith & Nephew, Inc. (11th Cir. 2017) 860 F.3d 1319, 1330
[manufacturing defect claims not impliedly preempted]; Bass v.
Stryker Corp. (5th Cir. 2012) 669 F.3d 501, 513-514 (Bass)
[same]; Bausch v. Stryker Corp. (7th Cir. 2010) 630 F.3d 546, 556558 (Bausch) [same].)
Glennen, supra, 247 Cal.App.4th 1, on which Mentor
relies, is not to the contrary. In Glennen, the plaintiffs claim was
based on the defendant’s alleged failure to train physicians how
to use its product, as the FDA required. (Id. at p. 20.) But “there
is no state law duty that requires a medical device manufacturer
to offer a physician training program.” (Ibid.) The claim thus
“‘exist[ed] solely by virtue of [FDA] requirements’” and was

11

AtV- YLimpliedly preempted. (Ibid.) Here, in contrast, Mentor had a tort
duty, under California law, to manufacture its breast implants in
compliance with FDA requirements. (Armstrong v. Optical
Radiation Corp. (1996) 50 Cal.App.4th 580, 595 (Armstrong).)
Evraets v. Intermedics Intraocular, Inc. (1994) 29
Cal.App.4th 779 (Evraets) does not suggest there is no such duty,
as Mentor asserts. That case involved claims based on
inadequate testing, defective design, and failure to warn, not
manufacturing defects. (Id. at p. 787.) “It is axiomatic that cases
are not authority for propositions . . . not considered.” (California
Building Industry Association v. State Water Resources Control
Board (2018) 4 Cal.5th 1032, 1043.) More significantly, Evraets
predated the U.S. Supreme Court’s decision in Medtronic, Inc. v.
Lohr (1996) 518 U.S. 470, 497-502 (Lohr), which held that the
MDA does not preempt state-law claims based on manufacturing
defects. Thus, to the extent Evraets suggested otherwise, it is no
longer good law. (Armstrong, supra, 50 Cal.App.4th at p. 596, fn.
13.) Mize’s claims are not impliedly preempted.
2. Causation
“[U]nder either a negligence or strict liability theory
of products liability, to recover from a manufacturer a plaintiff
must prove that a defect caused [their] injury.” (Merrill v.
Navegar, Inc. (2001) 26 Cal.4th 465, 479.) This requires showing
“some substantial link or nexus” between the alleged defect and
the injury. (Saelzler v. Advanced Group 400 (2001) 25 Cal.4th
763, 778.) At the pleading stage, the plaintiff need only allege ‘“a
causal connection’” between the two. (Rannard, supra, 26 Cal.2d
at p. 156.) ‘“Ordinarily that is accomplished by implication from
the juxtaposition of the allegations of wrongful conduct and
harm.’” (Christensen v. Superior Court (1991) 54 Cal.3d 868, 900

12

Aflp. I2>
(Christensen).) It is only ‘“where the pleaded facts of negligence
and injury do not naturally give rise to an inference of causation
[that] the plaintiff must plead specific facts affording an inference
the one caused the others.’ [Citation.]” (Id. at pp. 900-901.)
Mize sufficiently pled her manufacturing defect
claims. She alleged that in the years leading up to her implant
surgery Mentor failed to meet FDA-imposed manufacturing
quality standards, destroyed evidence of its implants’ high
rupture rates, sold contaminated implants, and failed to comply
with FDA-mandated design and materials specifications. She
alleged that she later suffered a number of ailments that
subsided once her implants were removed. That juxtaposition
naturally gives rise to an inference that Mentor’s alleged
manufacturing defects caused her injuries. (Christensen, supra,
54 Cal.3d at pp. 900-901.)
The trial court improperly refused to make this
inference. As part of the 1998 consent decree between Mentor
and the FDA, Mentor promised to remedy its alleged violations,
comply with federal law, and implement good manufacturing
practices. To the court below, this promise broke any causal
connection between Mentor’s manufacturing conduct and Mize’s
defective implants. But a company’s promise to do something
does not establish that it did so. The FDA’s 2003 nonopposition
to the consent decree’s dissolution similarly does not defeat an
inference of causation; it merely shows that the FDA believed
that Mentor remedied the problems, not that it did.
The trial court also faulted Mize for insufficiently
pleading how Mentor failed to comply with IDE requirements or
how that failure affected the manufacture of her implants. The
court required too much of Mize at the pleading stage. Under

13

Apf, \Ar
California law, a plaintiff may allege facts “in a conclusory
fashion if their knowledge of the precise cause of injury is
limited.” (Bockrath v. Aldrich Chemical Co., Inc. (1999) 21
Cal.4th 71, 80 (Bockrath).) That is particularly true where, as
here, the ‘“defendant has superior knowledge of the facts.’” (Doe
v. City of Los Angeles (2007) 42 Cal.4th 531, 549-550.)
“[I]n the context of Class III medical devices,” such as
Mentor’s MemoryGel breast implants, “much of the critical
information is kept confidential as a matter of federal law.”
(.Bausch, supra, 630 F.3d at p. 560.) “An injured patient,” like
Mize, thus “cannot gain access to that information without
discover^’ (ibid.), and cannot “fairly be expected to provide a
detailed statement of the specific bases for her claim” (id. at p.
558). She should not be required to meet a pleading standard
that identifies specific IDE requirements breached by Mentor
based on information available only to Mentor and the FDA.
(Coleman v. Medtronic, Inc. (2014) 223 Cal.App.4th 413, 436
(Coleman)', see Bockrath, supra, 21 Cal.4th at p. 82 [plaintiff
could pursue claim despite lack of knowledge of specific cause of
injury]; Bass, supra, 669 F.3d at p. 511 [requiring allegations
about confidential manufacturing processes “make[s] pleading a
parallel [state] claim regarding defective manufacturing nearly
impossible”].) The trial court erred when it sustained the
demurrer to Mize’s manufacturing defect claims because she
could not meet that standard.
Failure to warn
Mize next contends the trial court erred when it
concluded that: (1) her failure-to-warn claims were expressly
preempted, and (2) she did not sufficiently plead that Mentor’s

14

. 15
failure to report adverse events to the FDA caused her injuries.
We again agree.
1. Preemption
Mize’s failure-to-warn claims are based on Mentor’s
breach of its duty to report information about adverse events to
the FDA. During clinical testing pursuant to an IDE, if a
manufacturer evaluates unanticipated adverse events, it must
“report the results of [that] evaluation to the FDA.” (21 C.F.R.
§ 812.150(b)(1).) If the manufacturer later wins premarket
approval of its device, it must report to the FDA whenever the
device “[m]ay have caused or contributed to a death or serious
injury” or when it “[h]as malfunctioned and . . . would be likely to
cause or contribute to a death or serious injury Q if the
malfunction were to recur.” (21 C.F.R. § 803.50(a).) “A claim
based on the failure to warn the FDA of adverse events is not
preempted to the extent state tort law recognizes a parallel duty.”
{Jacob v. Mentor Worldwide, LLC (C.D.Cal. 2019) 393 F.Supp.3d
912, 925; see also Stengel v. Medtronic, Inc. (9th Cir. 2013) 704
F.3d 1224, 1233 (Stengel).) California law recognizes a
manufacturer’s duty to warn the FDA of adverse events.
0Coleman, supra, 223 Cal.App.4th at pp. 428-429.) Mize’s failureto-warn claims are thus not expressly preempted. (Id. at p. 428.)
Mentor counters that Mize’s claims do not survive
preemption because the authority on which Coleman relied is no
longer good law. In reaching its conclusion that the MDA does
not preempt a failure-to-warn claim, the Coleman court relied
largely on the Ninth Circuit’s decision in Stengel, supra, 704 F.3d
1224. (Coleman, supra, 223 Cal.App.4th at pp. 428-429.) That
case concluded that: (1) a state-law tort claim based on a
manufacturer’s failure to warn the FDA of problems with its

15

Aff? ](p
product is not preempted if state law recognizes a parallel duty,
and (2) Arizona law recognizes such a duty. (Stengel, at pp. 12321233.) The Arizona Supreme Court subsequently rejected
Stengel’s latter conclusion: “[Established law does not recognize
a claim merely for failing to provide something like adverse event
reports ... to a government agency.” (Conklin v. Medtronic, Inc.
(Ariz. 2018) 431 P.3d 571, 579.)
But that does not mean that Coleman is no longer
good law in California. Conklin did not reject the Stengel court’s
framework that a claim based on a manufacturer’s failure to
warn of adverse events is not preempted if state law recognizes a
parallel duty; it simply rejected the conclusion that Arizona law
recognizes such a duty. Unlike Arizona, California does recognize
a duty to report adverse events to the FDA. Coleman thus
remains good law.
The trial court employed a different rationale than
Mentor, concluding that Mize’s failure-to-warn claims were
expressly preempted because she did not show that Mentor’s
failure to report adverse events violated any FDA requirement.
In reaching this conclusion, the court adopted the reasoning of
the federal district court in Ebrahimi v. Mentor Worldwide
LLC (C.D.Cal., May 25, 2018, No. CV 16-7316-DMG (KSX)) 2018
WL 2448095. But Coleman was binding on the court below.
{Auto Equity Sales, Inc. v. Superior Court (1962) 57 Cal.2d 450,
455.) Ebrahimi was not. (Johnson v. American Standard,
Inc. (2008) 43 Cal.4th 56, 69.) Moreover, in her complaint Mize
alleged that Mentor failed to report adverse events to the FDA, as
it was required to do in both the IDE clinical tests and the
postapproval studies. Because these allegations are based on a
duty that is not “different from, or in addition to, any [FDA]

16

Aft? 11
requirement,” Mize’s failure-to-warn claims are not expressly
preempted.
2. Causation
To prevail on her failure-to-warn claims, Mize “‘will
ultimately have to prove that if [Mentor] had properly reported
the adverse events to the FDA as required under federal law,
that information would have reached [her] doctors in time to
prevent [her] injuries.’ [Citation.]” (Coleman, supra, 223
Cal.App.4th at pp. 429-430.) But at this stage, Mize need only
allege “‘a causal connection’” between Mentor’s failure to report
and her injuries. (Rannard, supra, 26 Cal.2d at p. 156.) Here,
Mize alleged that if Mentor complied with the reporting duties
required in the IDE and postapproval studies, a fuller picture of
the adverse events associated with its MemoryGel implants
would have been available to the FDA, which would have in turn
made that information available to Mize’s doctors via the
MAUDE database. Mize’s doctors would then have
communicated that information to Mize, who would have had her
implants removed earlier. Assuming these allegations are true,
they allege a sufficient causal connection between Mentor’s
failure to report and Mize’s injuries.
Mentor counters that Mize has not shown that
information about adverse events would have reached her doctors
in time to prevent her injuries. We conclude that her allegations
are sufficient.
First, while Mentor was required to report adverse
events to the FDA, the evidence attached to its demurrer showed
that for adverse events associated with implant ruptures it could
submit spreadsheet reports that would not be included in the
MAUDE database. But this ignores that Mentor was required to

17

H
provide individual medical device reports—which could be
included in the database—whenever one of its implants
contributed to a person’s death.
Second, Mentor claims that even if it had submitted
individual medical device reports, the FDA had discretion to not
include those reports in the database. (21 C.F.R. § 803.9(a); see
also Pinsonneault v. St. Jude Medical, Inc. (D. Minn. 2013) 953
F.Supp.2d 1006, 1016 [adverse events not “automatically” made
public].) But because the FDA regularly publishes such
information in the database, it is reasonable to infer that it would
have done so here. (See, e.g., Hughes v. Boston Scientific
Corp. (5th Cir. 2011) 631 F.3d 762, 770, fn. 5; Rosen v. St. Jude
Medical, Inc. (N.D.N.Y. 2014) 41 F.Supp.3d 170, 187.)
Finally, Mentor claims that even if it submitted
individual medical device reports about implant ruptures, and
even if the FDA would have exercised its discretion to include
that information in the MAUDE database, there is no evidence
that Mize’s doctors consulted the database when making
decisions about her implants and their removal. But Mize alleges
otherwise, and further claims that her doctors would have told
her of the information in the database. It is reasonable to infer
that they did review the database and would have provided that
information to Mize. (See, e.g., Gravitt v. Mentor Worldwide,
LLC (N.D.I11. 2018) 289 F.Supp.3d 877, 891.)
‘“One of the dangers of winning on demurrer is that
you are stuck, on appeal, with your opponent’s version of the
facts.’” (Silguero v. Creteguard, Inc. (2010) 187 Cal.App.4th 60,
64.) Here, Mize’s version of the facts is sufficiently pled to
demonstrate a causal connection between Mentor’s reporting
failures and her delayed decision to remove her implants.

18

/Vf M
Whether Mize can ultimately prove those facts is of no concern to
us here. {Ibid.) A demurrer “‘may not be turned into a contested
evidentiary hearing”’ into the ‘“truthfulness or proper
interpretation’” of the evidence. {Ibid.) Because the trial court’s
decision reflects such a consideration of the evidence, it
erroneously sustained Mentor’s demurrer to Mize’s failure-towarn claims.
Negligence per se
Mize contends the trial court erred when it dismissed
her negligence per se claim since it is based on the same
allegations as her manufacturing defect and failure-to-warm
claims. She is correct.
Under the doctrine of negligence per se, negligence
will be presumed if: (1) a person violated a statute or regulation,
(2) that violation injured another person or their property, (3) the
injury was of a type the statute or regulation was designed to
prevent, and (4) the person or property injured was of the class
the statute or regulation was designed to protect. (Evid. Code,
§ 669, subd. (a).) Federal statutes, such as the FDCA or MDA,
and federal regulations, such as those imposed by the FDA, may
provide the applicable state standard of care, satisfying the first
of these requirements. {DiRosa v. Showa Denko K.K. (1996) 44
Cal.App.4th 799, 807; see Coleman, supra, 223 Cal.App.4th at p.
433; Evraets, supra, 29 Cal.App.4th at pp. 791-792.) State-law
tort claims that attempt to enforce these standards are not
expressly preempted since the state requirements are identical to
federal requirements. {Evraets, at p. 792; see § 360k(a) [only
state requirements that are “different from, or in addition to”
FDCA requirements are preempted].) Nor are such claims
impliedly preempted when the plaintiff attempts to enforce state

19

Apf. QJQ
requirements that parallel federal law.5 (Coleman, supra, 223
Cal.App.4th at pp. 432-433.)
Here, Mize alleged that Mentor violated the MDA
and FDA-imposed requirements. She also alleged that Mentor’s
manufacturing defects and its failure to properly report adverse
events to the FDA caused her injuries. These injuries are clearly
those the MDA and FDA regulations sought to prevent, and Mize
is in the class the FDA sought to protect. She may therefore
pursue her negligence per se claim. (Coleman, supra, 223
Cal.App.4th at p. 433.)
Loss of consortium
Finally, Nguyen contends the trial court erroneously
sustained Mentor’s demurrer to his loss-of-consortium claim
because it was derivate of his wife’s claims. He is correct.
Because Mize sufficiently pled valid, non-preempted causes of
action, Nguyen’s loss-of-consortium cause of action remains
viable. (Armstrong, supra, 50 Cal.App.4th at p. 597; see Hahn v.
Mirda (2007) 147 Cal.App.4th 740, 746 [loss of consortium claims
“stands or falls” based on whether spouse suffered actionable
injury].)

5 We disagree with the pre-Lohr and other non-California
cases cited by Mentor that hold otherwise.

20

.n
DISPOSITION
The judgment is reversed, and the matter is
remanded to the trial court with directions to enter an order
overruling the demurrer to the third amended complaint. Mize
and Nguyen shall recover their costs on appeal.
CERTIFIED FOR PUBLICATION.

TANGEMAN, J.
We concur:

GILBERT, P. J.

YEGAN, J.

21

1
2
3
4

5
6
7

8
9
10

Jennifer A. Lenze, CA Bar# 246858
LENZE LAWYERS, PLC
1300 Highland Avenue, Suite 207
Manhattan Beach, CA 90266
Telephone: (310) 322-8800
Facsimile: (310) 322-8811
ilenze@lenzelawvers.com
mcgec@,lenzclawvcrs.com

APR 02 2018
Sherri R. Carter, Executive uttlcar/Clerk
By: Maria Aguirre, Deputy

Edward E. Angwin
ANGWIN LAW FIRM
11500 W. Olympic Blvd., Suite 512
Los Angeles, CA 90064
Work: (310)943-9587
Cell: (406) 548-7200
ed@angwinlaw.com
Attorneys for Plaintiff

11
12

CQNt-OEilVJED COPy
ORIQINAL FILED
Superior Court of California
Countv of Los Aivipi..c

SUPERIOR COURT OF THE STATE OF CALIFORNIA
FOR THE COUNTY OF LOS ANGELES, CENTRAL CIVIL WEST DISTRICT

13
Case No.: BC649083

14
15
16

REXINA MIZE, an individual; M1NH NGUYEN,
an individual;
Plaintiffs,

17
18
19

v.
MENTOR WORLDWIDE LLC; NEAL
HANDEL, M.D.; and DOES 1-100, inclusive,

20

21

Defendants.

THIRD AMENDED COMPLAINT
(1) NEGLIGENCE/NEGLIGENCE PER SE
(2) STRICT PRODUCTS LIABILITYFAILURE TO WARN
(3) STRICT PRODUCTS LIABILITY­
MANUFACTURING DEFECT
(4) LOSS OF CONSORTIUM
(5) MEDICAL BATTERY
(6) FAILURE TO OBTAIN INFORMED
CONSENT

22

DEMAND FOR JURY TRIAL

23

Judge:
Dept.:

24

25
26
27

Honorable Carolyn B. Kuhl
309

Third Amended Complaint Filed: 4/2/2018
Second Amended Complaint Filed: 8/17/17
Complaint Filed: 2/2/2017
Trial Date: None

28

PLAINTIFFS’ THIRD AMENDED COMPLAINT
1

Af> pen p I x B

65

Aff,
1

Plaintiff REXINA MIZE, an individual, and Plaintiff MINH NGUYEN, an individual by

2

and through their attorneys, based on information and belief, and for causes of action against the

3

Defendants, MENTOR WORLDWIDE LLC; NEAL HANDEL, M.D.; and DOES 1 through

4

100, inclusive, (hereinafter collectively referred to as “Defendants”) and each of them, hereby

5

allege as follows:

6
7

8
9
10
11
12

I.
1.

PARTIES

At all times relevant hereto, Plaintiff REXINA MIZE (hereinafter “Mize”) is and was a

citizen and resident of Los Angeles County, California.
2.

At all times relevant hereto, Plaintiff MINH NGUYEN is married to, and the husband of,

Plaintiff REXINA MIZE, and is and was a citizen and resident of Los Angeles County,
California. (Hereinafter, Mize and Plaintiff Nguyen will be referred to, collectively, as
“Plaintiffs”).

13
3.

Defendant NEAL HANDEL, M.D. (hereinafter “Handel”) was and is licensed to practice

14
medicine in the State of California, and does practice medicine in this State.
15
16
17
18
19
20

21

4.

Upon information and belief, Handel practices medicine at 9201 W. Sunset Blvd., Suite

214, West Hollywood, California 90069.
5.

Defendant MENTOR WORLDWIDE LLC (“Mentof’) is a limited liability company

incorporated under the laws of the State of Delaware, with its principal place of business located
at 201 Mentor Drive, Santa Barbara, California, 93111, and with its headquarters located at 33
Technology Drive, Irvine, California, 92618.

22

6.

Defendant Mentor was acquired by Johnson & Johnson (“ J&J”) in 2009 and currently

23

operates as a subsidiary of J&J’s wholly owned subsidiary Ethicon, Inc. (“Ethicon”).

24

7.

25

Defendants DOES 1 through 100, inclusive, are unknown to Plaintiffs at this time, who therefore

26

sue said Defendants by such fictitious names.

27

8.

28

fictitiously named herein as a DOE is legally responsible, negligently or in some other actionable

The true names and/or capacities, whether individual, corporate, associate or otherwise of

Plaintiffs are informed and believe, and thereupon allege, that each of the Defendants

PLAINTIFFS’ THIRD AMENDED COMPLAINT
2

66

Aff 24
1

manner, for the events and happenings hereinafter referred to, and thereby proximately caused

2

the injuries and damages to Plaintiffs as hereinafter alleged.

3

9.

4

capacities of such fictitiously named Defendants when the same have been ascertained.

5

10.

6

“Defendants.”

7
8

9
10
11
12

11.

Plaintiffs will seek leave of court to amend this Complaint to insert the true names and/or

Hereinafter, the aforementioned Defendants may collectively be referred to as

At all relevant times, each Defendant acted in all aspects as the agent and alter ego of

each other.
12.

The combined acts and/or omissions of each Defendant resulted in indivisible injuries to

Plaintiff. Each of the above-named Defendants is a joint tortfeasor and/or co-conspirator and is
jointly and severally liable to Plaintiff for the negligent acts and omissions alleged herein. Each
of the above-named Defendants directed, authorized or ratified the conduct of each and every

13
other Defendant.
14
13.

These concerted efforts resulted in significant harm to Plaintiffs. But for the actions of

15
16
17
18

Defendants, individually, jointly, and in concert with one another, Plaintiffs would not have been
implanted with Mentor’s MemoryGel Silicone Gel Breast Implants and would not have suffered
severe injuries.
H.

19
20

21

14.

JURISDICTION AND VENUE

Jurisdiction is proper because the amount in controversy exceeds the jurisdictional

minimum of this Court.

22

15.

Venue and jurisdiction are also proper because the contracts that form the basis of this

23

action were entered into and to be performed in the County of Los Angeles, State of California,

24

and the acts alleged caused damage to Plaintiffs occurred in the County of Los Angeles.
HI.

25

FACTS RELEVANT TO ALL COUNTS

26
27
.28

16.

Plaintiffs’ claims are based on injuries suffered as a result of Mize undergoing a bilateral

breast augmentation procedure on September 27, 2000, during which Mize was implanted with

PLAINTIFFS’ THIRD AMENDED COMPLAINT
3

67

Apf. -2-5
1
2

Mentor’s MemoryGel® Silicone Breast Implants. (See, Exhibit A, Product Identification
Labels).

3
4

A.
17.

FDA Regulation of Silicone Breast Implants

In 1976, Congress passed the Medical Device Amendments ("MDA") to the Federal

5

Food, Drug and Cosmetic ("FDCA”). At the time that the MDA was enacted, certain medical
6
devices1, including breast implants2, were already being sold in the United States.
7

8
9
10
11
12

18.

Under the MDA, medical devices, such as the subject breast implants, are subject to three

classifications and regulated accordingly. Class I devices require the least and most general
oversight. 21 U.S.C. § 360c(a)(l)(A). Class II devices are reviewed according to more stringent
“special controls,” such as performance standards. Id. § 360c(a)(l)(B). Finally, Class III devices
receive the most oversight and require rigorous premarket review and approval. Id. §360c

13

(a)(l)(C)(ii).

14

19.

15

However, because of reports of adverse events, the FDA re-classified silicone gel-filled breast

16

implants as Class III devices.3 Accordingly, the FDA required that manufacturers meet certain

17

requirements to allow these medical devices to remain on the market.

18

20.

19

515(b) of the FDCA requiring that manufacturers of silicone gel-filled breast implants submit

20

pre-market approval applications (“PMAs”) with data showing a reasonable assurance of safety

21

and effectiveness of the implants by July 9, 1991.

22

21.

23

of silicone gel-filled breast implants, including Mentor, did not contain sufficient data.

The FDA originally classified silicone gel-filled breast implants as Class II devices.

Subsequently, on April 10, 1991, the FDA published a final regulation under Section

On August 22, 1991, the FDA determined that the PMAs submitted by the manufacturers

24
25
26
27

28

i

The term “medical device” includes any “implant [] which is [] intended to affect the structure or any
function of the body of man, and which does not achieve its primary intended purposes through chemical
action within or on the body of man [] and which is not dependent upon being metabolized for the
achievement of its primary intended purposes.” 21 U.S.C. § 321.
2 A breast implant is a prosthesis product used to change the size, shape, and contour of a woman’s breast.
3 A more detailed explanation of the FDA’s regulation of breast implants can be accessed at
(Regulatory History of Breast Implants in the U.S.) (Last accessed March 30, 2018).
PLAINTIFFS' THIRD AMENDED COMPLAINT
4

68

Apf 'Lip
1

22.

2

regarding silicone gel-filled breast implants was sufficient to establish that they were safe and

3

effective.

4

23.

5

gel-filled breast implants until new safety information could be thoroughly reviewed.

6

24.

7
8
9
10
11
12

In November of 1991, the FDA convened a panel to consider whether the PMA data

On January 6, 1992, the FDA called for a voluntary moratorium on the use of silicone

Additional information on silicone gel-filled implants was reviewed by the FDA panel on

February 18, 1992, including case reports of autoimmune diseases, and evidence that some
implants had leaked excessively.
25.

On April 16, 1992 the FDA announced that there was not sufficient data to support

approval of the sale of silicone gel-filled breast implants and that it would allow implantation of
silicone gel-filled breast implants only under controlled clinical studies for reconstruction after
mastectomy or correction of congenital deformities (reconstruction), or replacement of ruptured

13
silicone gel-filled implants due to medical or surgical reasons (revision). The FDA expressly

14
denied applications to use silicone gel-filled breast implants for breast augmentation.

15
16
17
18

26.

revision would be considered to be “investigational devices,” and that women who received
these implants should be followed through clinical studies.
B.

19
20

The FDA further ordered that any silicone gel-filled implants used for reconstruction or

27.

FDA Regulation of Investigational Devices

The FDA requirements concerning clinical investigations of investigational devices are

21

governed by the Investigational Device Exemption (“IDE”)4 rules of the Food, Drug and

22

Cosmetic Act.

23

28.

24

Use” and provides “It is the purpose of this subsection to encourage, to the extent consistent with

25

the protection of the public health and safety and with ethical standards, the discovery and

Section 520(g) of the FDCA allows for the “Exemption for Devices for Investigational

26
27
28

(Investigational Device Exemptions Manual) and
(Guidance on IDE Policies and Procedures) for more detailed

4 See,
explanations of the IDE process.

PLAINTIFFS' THIRD AMENDED COMPLAINT
5

69

Afp. 2T\
1

development of useful devices intended for human use and to that end to maintain opti mum

2

freedom for scientific investigators in their pursuit of that purpose.”

3

29.

4

FDA allow it to conduct an IDE clinical investigation.

5

30.

6

posed by the particular device are outweighed by anticipated benefits and that the device will be

7

8

9
10
11
12

Under these rules, a manufacturer may submit a detailed IDE application asking that the

The purpose of the IDE clinical investigation is to obtain sufficient evidence that the risks

effective as used.
31.

Submission of an DDE begins the regulatory process for conducting a study. The IDE is a

dynamic document and the Sponsor-Investigator must ensure that the IDE be kept current as the
study progresses and the Sponsor-Investigator agrees to keep the FDA as well as the study’
Investigational Review Board apprised of any adverse events, any changes or amendments in the
protocol; to file annual reports; and to notify the FDA at the completion of the study .5

13
32.

“An approved investigational device exemption (IDE) permits a device that otherwise

14
would be required to comply with a performance standard or to have premarket approval to be

15
16
17
18
19
20

shipped lawfully for the purpose of conducting investigations of that device.” 21 CFR 812.1.
33.

The data gathered in an IDE clinical investigation is used to determine whether the

medical device at issue will be approved for sale through either the pre-market approval
(“PMA”) or premarket notification (“510(k)”) process.
34.

Because silicone gel-filled breast implants present “a potential for serious risk to the

21

health, safety, and welfare of a subject [or] otherwise poses a risk” they are classified as

22

“significant risk” products. See, 21 CFR 812.3(m). Therefore, no studies could be started until

23

the IDE is approved by FDA.

24

35.

25

application include certain information including: “A description of the methods, facilities, and

26

controls used for the manufacture, processing, packing, storage, and, where appropriate,

While there is no “form” for an IDE application, the does FDA require that any

27
28

5 See,
Understanding FDA Regulatory
Requirements for an Investigational Device Exemption (IDE) for Sponsor-Investigators
(last accessed April 1. 2018) for a more detailed explanation of the IDE process.
PLAINTIFFS’ THIRD AMENDED COMPLAINT
6

70

Aff.
1

installation of the device, in sufficient detail so that a person generally familiar with good

2

manufacturing practices can make a knowledgeable judgment about the quality control used in

3

the manufacture of the device.” See, 21 CFR 812.20(b) (3).

4

36.

5

plan must include: “[a] written protocol describing the methodology to be used and an analysis

6

of the protocol demonstrating that the investigation is scientifically sound [;] [a] description and

7
8

9
10
11
12

Once the IDE application is approved, the sponsor must also submit an IDE plan. That

analysis of all increased risks to which subjects will be exposed by the investigation; the manner
in which these risks will be minimized; a justification for the investigation; and a description of
the patient population, including the number, age, sex, and condition[;] [a] description of each
important component, ingredient, property, and principle of operation of the device and of each
anticipated change in the device during the course of the investigation[;][t]he sponsor's written
procedures for monitoring the investigation and the name and address of any monitor[;] [cjopies

13
of all labeling for the device [;] [and] [c]opies of all forms and informational materials to be
14
provided to subjects to obtain informed consent.6” See, 21 CFR 812.25 (b-g).
15
16
17
18
19
20

21
22

37.

A sponsor of an IDE, such as Mentor, is also responsible for selecting qualified

investigators, if it does not act as the investigator itself, and providing the investigators with the
information that they need to conduct the investigation properly. The sponsor must also ensure
proper monitoring of the IDE and that the Independent Review Board (“IRB”)7 and FDA
promptly of any significant new information about the investigation. See, 21 CFR §812.40.
38.

There are also specific requirements for the manner in which the IDE is to be conducted

including the requirement that any “unanticipated adverse device effects”8 occurring during an

23
24

25
26
27
28

6 The FDA further requires that the IDE application include: “Copies of all forms and informational
materials to be provided to subjects to obtain informed consent.” See, 21 CFR 812.20(b)(l 1).
7 An IRB is an appropriately constituted group that has been formally designated by the FDA to review
and monitor biomedical research involving human subjects.
8
An “unanticipated adverse device effect” is “any serious adverse effect on health or safety or any lifethreatening problem or death caused by, or associated with, a device, if that effect, problem, or death was
not previously identified in nature, severity, or degree of incidence in the investigational plan or
application (including a supplementary plan or application), or any other unanticipated serious problem
associated with a device that relates to the rights, safety, or welfare of subjects” (21 CFR 812.3(s)).
PLAINTIFFS’ THIRD AMENDED COMPLAINT
7

71

Aff.
1

investigation be reported to the IRB and sponsor as soon as possible, but in no event later than 10

2

working days after the investigator first learns of the adverse effect. See, 21 CFR 812.150(a)(1).

3

39.

4

“immediately conduct an evaluation” (See, 21 CFR 812.46(b)) and to “report the results of such

5

evaluation to FDA and to all reviewing IRB's and participating investigators within 10 working

6

days after the sponsor first receives notice of the effect.” See, 21 CFR 812.150(b)(1).

7

8
9
10
11
12

40.

After being notified of an unanticipated adverse device event, a sponsor is required to

While the IDE regulations specifically provide that an IDE approved device is exempted

from compliance with performance standards and good manufacturing practice requirements
(“cGMP”) (See 21 CFR § 812.1(a)), the IDE process does subject manufacturers to complex and
comprehensive regulations which set forth detailed procedures for determining whether
investigational devices are safe and effective.
41.

In order to obtain an IDE, a manufacturer must provide the FDA with extremely detailed

13
information pursuant to FDA promulgated regulations about the device, its manufacture, and the
14
experimental plan for its use.
15
16
17
18
19

42.

Mentor, which are responsible for designing and conducting the studies, ensuring compliance
with all governing rules, regulations and requirements and accurately and truthfully reporting all
information gathered to the FDA
C.

20

21

Although the IDE process is overseen by the FDA, it is the manufacturers, such as

43.

Mentor Seeks FDA Approval of its Silicone Gel-filled Implants

In order to eventually seek pre-market approval for its MemoryGel Silicone gel-filled

22

breast implants, Mentor was required to first provide the FDA with sufficient information

23

regarding the safety and efficacy of that medical device.

24

44.

25

26

clinical testing pursuant to an investigational device exemption ("IDE"). See, 21 U.S.C. § 360j
)
(g). Mentor was prohibited from conducting research concerning the device on human subjects

27

without prior approval by the FDA. See, 21 CFR § 812.20.

As part of this process, Mentor requested that it be allowed to use the medical device for

28

PLAINTIFFS’ THIRD AMENDED COMPLAINT
8

72

AfP, 30
1

45.

2

detailed procedures intended to ensure that the devices are safe and effective.

3

46.

4

Study” for reconstruction and revision patients only (July of 1992); “Core Study” (August of

5

19929); and, “IDE” study (August 2, 2000).

6

47.

7
8

11
12

In connection with Mentor’s IDE, the FDA approved the following studies: “Adjunct

The FDA also sent a letter to Mentor and other companies seeking approval for the sale

of silicone gel-filled implants and discussing the type of information needed for core studies
(IDE studies) of silicone gel-filled breast implants on January 11, 1996.

9
10

Investigational devices are subject to complex and comprehensive regulations and

D.
48.

Mentor Manufacturing Problems prior to Mize’s implantation

During the time period relevant to the present matter, all of Mentor’s silicone gel-filled

breast implants were manufactured at a facility in Irving, Texas operated by Mentor Texas, Inc.
(“Mentor Texas”) a wholly owned subsidiary of Mentor.

13
49.

Based on whistle blower complaints and other information, an investigation was initiated

14
by the United States into the manufacturing process for the silicone gel-filled breast implants
15
16
17
18
19
20

21

made at the Mentor Texas plant.
50.

As a result of the information gathered in that investigation, a complaint was filed on

May 6, 1998, in the United State Court for the Northern District of Texas, United States v.
Mentor, et al., 3:98-cv-01105-G seeking an injunction to prohibit Mentor and Mentor Texas
from manufacturing silicone gel-filled breast implants in violation of the requirements of Federal
law.

22

51.

On that same date, the parties to that case entered into a Consent Decree and Judgment of

23

Permanent Injunction requiring that Mentor and Mentor Texas remedy the deficiencies identified

24

and provide proof that their future manufacturing was being done in compliance with Federal

25

law and regulations.

26
27
28

9 “In April 1992, the [FDA] moratorium was lifted but only for reconstruction and revision patients.
Every patient implanted had to be part of an adjunct study, and had to be offered participation in a registry
of gel-filled breast implant patients. In order to be implanted with gel-filled implants for augmentation,
women had to be enrolled in a core clinical study.” See Exhibit B, Core Gel Study, pg. 3.
PLAINTIFFS’ THIRD AMENDED COMPLAINT
9

73

Affi ai
1

52.

2

FDA’s Quality System Regulation, which is designed to ensure that medical devices are

3

consistently high in quality and are safe and effective.

4

53.

5

from individuals who had been senior officials at the Mentor Texas facility.

6

54.

7
8

9
10
11
12

Specifically, Mentor agreed to manufacture its breast implants in compliance with the

The evidence supporting the claims made by the United States included sworn testimony

John C. Kaijanis, who from 1996 until 1998 was manager of product evaluation at

Mentor Texas, testified that basic quality standards for implant manufacturing were never met
while he served in that capacity. He further testified that he was instructed by his supervisors to
destroy reports detailing the high rupture rates and poor quality of implants manufactured at that
facility because the products "are in the customers."
55.

He also testified that implants were sometimes contaminated with fleas and that

employees at the Mentor Texas facility would sometimes store defective implant parts above

13
ceiling tiles so managers and inspectors would not realize how often the plant failed to make
14
properly manufacture the implants.
15
16
17
18
19
20

56.

Similarly, Cynthia Fain, the supervisor of the complaint unit testified that Mentor greatly

underreported rupture rates for its implants to federal authorities and suppressed a report finding
that some implant models had a high failure. Mentor also was cited for other manufacturing
deficiencies prior to the date that Mize received her implants. These include, but are not limited,
to a Form 48310 issued to Mentor on October 16, 1997 indicating that prior to February of 1997

21

no finished device testing was performed on any of its gel or saline filled mammary devices and

22

that certain post sterilization testing was not done for an unknown time and these materials were

23

used for gel implants.

24

57.

25

Mentor’s implants are more likely to break than the company reported. It has also been reported

Upon information and belief, a Mentor chemist of 15 years reported to the FDA that

26
27
28

10 An FDA Form 483 is issued when an investigation establishes that a drug, device or cosmetic has been
adulterated or is being prepared, packed, or held under conditions whereby it may become adulterated or
rendered injurious to health or when an investigator has observed conditions that may constitute
violations of the FDCA or related Acts. The purpose of the Form 483 is to notify the company of the
objectionable conditions and to allow the company to propose a plan to correct these conditions.
PLAINTIFFS’ THIRD AMENDED COMPLAINT
10

74

321

that the silicone is more likely to leak, even when the implants are intact, and that the materials

2

used in the implants are more dangerous than reported.

3

58.

4

terminating studies, sponsoring only self-serving research they could control, and by

5

misrepresenting the risks to the users, physicians, and regulatory agencies.

6

£.

7
8

9
10
11
12

Mentor knew of these risks associated with its implants, but covered them up by

Mize receives her implants unaware that she is a participant in a study or

that the implants have not been approved by the FDA
59.

Mize consulted Handel for the purpose of having a bilateral breast augmentation. Mize

had not previously received silicone gel-filled breast implants, so she was not a revision
candidate, and she did not require breast reconstruction.
60.

Despite the fact that Mize did not meet the criteria established by the FDA for receiving

silicone gel-filled implants in any of the then existing IDE studies”, Handel recommended that

13
Mize be implanted with Mentor’s MemoryGel Silicone breast implants. Failing to comply with
14
procedures for including Mize in the IDE study violated 21 CFR § 812.18
15
16
17
18
19
20

61.

Mize was not provided sufficient information to allow her to understand that she was

receiving the Mentor silicone gel-filled implants as part of a clinical study, was not advised that
the FDA had not approved these implants for sale in the United States and was not properly
advised if the risks and potential adverse effects which she could suffer by having these implants
placed in her body.
F.

21

Mentor’s actions after Mize’s implantation surgery

22

62.

On December 12, 2003, Mentor submitted a request to the FDA for PMA for its silicone

23

gel-filled breast implants.

24
25

26
27
28

11 The Adjunct Study criteria as approved by the FDA limited participation to patients seeking breast
implants for: Post-mastectomy or reconstruction due to cancer treatments other than mastectomy or
complications from such reconstruction surgery; total or partial removal of the breast(s) through surgery
(for any reason) or as a result of trauma; severe congenital deformities or deformity caused by medical or
surgical complications; severe asymmetry; or, replacement or revision for patients with existing implants.
The FDA specifically excluded patients who sought breast augmentation without meeting at least one of
the inclusion criteria. See,
(last accessed April 1, 2018).
PLAINTIFFS ’ THIRD AMENDED COMPLAINT
11

75

A? f. 'b'b
1

63.

2

breast implants, subject to certain conditions. One of the conditions was that Mentor was

3

required to conduct six post-approval studies to further characterize the safety and effectiveness

4

of its silicone gel-filled breast implants and to answer long term questions that the clinical trials

5

were not designed to answer.

6

64.

7
8

9
10
11
12

On November 17, 2006, the FDA approved Mentor’s PMA for its silicone gel-filled

Specifically, the FDA required Mentor to: (a) Continue and complete the “Core” post­

approval study; (b) Conduct a large post-approval study to assess long-term outcomes and
identify rare adverse events and follow patients for 10 years; (c) Conduct a device-failure study
in concert with their large post-approval study to further identify the modes and causes of failure
of explanted devices over the 10-year period; (d) Complete a focus-group study to evaluate how
easily patients understand the information in the informed decision brochure about the risks
associated with the use of silicone breast implants; (e) Complete an informed decision study to

13
monitor the process of how patient labeling is distributed to women considering silicone gel14
filled breast implants; and (f) Complete the “adjunct” study and continue to follow existing
15
16
17
18
19
20

21

participants through their 5-year post-implant evaluations.
65.

Mentor failed to ensure that these mandated studies were preformed properly, in part by

not ensuring that the participants were followed after implantation. Accordingly, the information
which the FDA was seeking regarding adverse events and device failures was never gathered.
66.

For example, the “Core” study involved 1008 patients and Mentor was required to

continue to follow these patients for the ten years following implantation to assess the long-term

22

clinical performance of the silicone gel-filled implants. This was required to include 11 follow­

23

up visits, at 6 months post-operation, and annually 1 year to 10 years after surgery.

24

67.

25

and that all patients who were explanted without replacement were to be evaluated through 10

26

years.

The FDA also stated that all non-MRI patients should have an MRI at years 6, 8, and 10,

27
28

PLAINTIFFS’ THIRD AMENDED COMPLAINT
12

76

Apf. ^4
1

68.

2

reflect the results of the 5 and 10-year Core Study findings and to report to the FDA significant

3

new information regardless of when the information became available.

4

69.

5

only 59 percent, Mentor reported that the follow-up rate at 10 years post-implant was 62 percent.

6

See Exhibit C, pg. 1.

7

8
9
10
11
12

70.

Mentor was further required to update the patient and physician labeling or its product to

Although the actual follow-up rates for the “Core” study at 9 years post-implant were

Furthermore, the FDA requirements specifically mandated evaluation through 10 years,

but the core post-approval study report schedule illustrates that reporting was only done for 6
years. See Exhibit C, pg. 2.
71.

There were also other significant flaws and shortcomings in the information which

Mentor provided to the FDA related to this study.
72.

The lack of a sufficient statistical sample, due to the low follow-up rate, as well as the

13
inconsistent data and the failure of Mentor to ensure that the study was completed violated the
14
FDA requirements and significantly limited the information available regarding the long term
15
16
17
18
19
20

21

effects of use of the product.
73.

The manner in which Mentor conducted the large Post-Approval Study (the “Large”

study) and reported the information which it did gather were equally flawed.
74.

The purpose for the “Large” study was to address specific issues such as long term local

complications experienced by patients, such as connective tissue disease (“CTD”), CTD signs
and symptoms, neurological disease, neurological signs and symptoms; offspring, reproductive,

22

and lactation issues; cancer rates, suicide, mammography issues, rupture results, and MRI

23

compliance.

24

75.

25

the internet, by mail, or by telephone.

26

76.

27

complications.

28

III

The study data was to be collected through annual patient questionnaires completed over

The study also required physician evaluations at years 1, 4-6, 9 and 10 to collect data on

PLAINTIFFS’ THIRD AMENDED COMPLAINT
13

77

Aff, 35
1

77.

2

year study findings, as well as at any other time if necessary to report significantly new

3

information from the study.

4

78.

5

that the information obtained was not sufficient to allow for the identification of problems and

6

adverse effects from long term use of the product.

7

79.

8

9
10
11
12

Mentor was required to update their patient and physician labeling to reflect the 5 and 10-

As with the other mandated studies, the follow up rate for the “Large” study was so low

By the seventh year of this study, the overall follow-up rate was 20.1% (approximately

8,331 participants out of 41,452), leaving 79.9% of the desired statistics unavailable for
evaluation.
80.

This was a study of significant importance required by the FDA for post market approval.

The study was designed to address a critical spectrum of health issues for women with breast
implants. Mentor did not comply with the required data collection. With nearly an 80% dropout

13
rate, the study failed to collect data to demonstrate that use of the Mentor silicone gel implants
14
was safe.
15
16
17
18
19
20

21

81.

The inadequate results are even more disconcerting because the data collection was

designed to examine reasons for reoperation-previously unevaluated-including MRI results, and
rheumatologic or neurological symptoms.
82.

The lack of participation and reliable results from this study show that Mentor has failed

to comply with FDA requirements.
83.

Mentor did not follow through with required data collection. The Year 1 follow-up rate of

22

surgeon visit for study participants was 22.8%, leaving nearly 80% unaccounted for. Similarly,

23

the Year 1, 2, and 3 follow-up rates were 21.4%, 24.3%, and 23.0%, respectively, leaving nearly

24

80% unaccounted for. At Year 7, the overall follow-up rate was 20.1%, leaving 79.9% of

25

participants unaccounted for and did not have follow-ups for data collection. No follow-up rates

26

were provided for the 10-year data collection.

27

III

28

III

PLAINTIFFS’ THIRD AMENDED COMPLAINT
14

78

AfP. 30
1

84.

2

to the FDA and insufficient to allow for the identification of adverse effects or other problems

3

resulting from long term use of the product.

4

85.

5

and frequency of, device failure. Specifically the FDA required that "Mentor must continue

6

preclinical studies to characterize the long-term modes and causes of failure of explanted

7
8

9
10
11
12

These follow-up rates were too low for Mentor to provide meaningful safety information

Mentor was also required to conduct a Device Failure Study to ascertain the reasons for,

retrieved devices for the 10-year duration of the large postapproval study ."
86.

The study design involved two components: 1) the collection of implant/surgery

information and clinical data at the time of explantation, and 2) visual inspection and physical
testing of the explanted devices. No study population was stated, and there was no patient
follow-up.
87.

Mentor's Device Failure post-approval study failed to contain an adequate sample size to

13
provide meaningful data.
14
88.

Further, Mentor's Device Failure post-approval study report of summary findings failed

15
16
17
18
19
20

21

to meet the requirements established by the FDA as it did not list results of the data findings (no
clinical data and no visual inspection data), did not list safety findings, did not list any
recommendations or summary of safety and data or follow-up on the data, and did not list any
changes to labeling, all in violation of the FDA’s requirements.
89.

Mentor was also required to conduct a Focus Group Study to gather information

regarding the adequacy of the format and content of the approved product labeling.

22

90.

Mentor used an inadequate number of individuals to properly evaluate how patients

23

understood the safety and labeling brochures.

24

91.

25

success of the informed decision process provided to women who seek breast implant surgery.

26

Both the physician and the patient were intended to sign designated sections in order to best

27

assure that the patient had obtained the labeling in sufficient time prior to surgery to read it and

28

understand the risks and other information associated with the Mentor device.

The FDA also required that Mentor conduct as Informed Decision Study to determine the

PLAINTIFFS’ THIRD AMENDED COMPLAINT
15

79

AfY- 31
1

92.

2

results obtained from this study.

3

93.

4

approved in 1992, including the requirement that Mentor continue to follow-up on all patients

5

currently enrolled in that study for 5 years. The data from this follow-up was to be reported as

6

part of the annual reports required by the FDA.

7
8

9
10
11
12

94.

Mentor failed to provide sufficient information regarding the methodology used or the

The FDA further mandated that Mentor continue the Adjunct Study, which had been

The Adjunct Study was designed to follow-up with patients post-operatively at years 1, 3,

and 5 to assess satisfaction and occurrence of local complications. The study was to gather data
regarding short-term and local (tissue) implant complications.
95.

The overall patient follow-up rates declined as follows: Year - 44%; Year 3 - 24.7%’

and, Year 5 - 13 .8%. Mentor sought to attribute the poor follow up rates to a lack of patient
compliance. Mentor also admitted that the lack of sufficient data significantly limited

13
interpretation of the available safety results.
14
G.

15

breast implants

16
17
18
19
20

21

Mize suffers injuries from the implantation of Mentor’s Silicone gel-filled

96.

Plaintiff Rexina Mize underwent a bilateral breast augmentation procedure on September

27, 2000, wherein Mentor’s MemoryGel Silicone breast implants were implanted by Defendant
Neal Handel M.D.
97.

Plaintiff was unaware that she was receiving the Mentor implants as a participant in

Mentor’s Adjunct Study.

22

98.

23

revision, therefore, she was not a proper candidate for participation in the Adjunct Study.

24

99.

25

such follow up was mandated by the FDA for all participants in the Adjunct Study. This is

26

consistent with the fact that there was a very low follow up rate for all participants in this and the

27

other studies required by the FDA.

28

III

Mize sought breast implants for primary augmentation purposes, not for reconstruction or

Mize was not contacted for follow up information following this implantation, although

PLAINTIFFS’ THIRD AMENDED COMPLAINT
16

80

Afp, 3<2
1

100.

2

enjoyed an active and full life and regularly performed as a musician and singer in a band.

3

101.

4

and chronic fatigue, muscle pain, muscle weakness, muscle cramps, bone pain, swelling in her

5

joints, pain in her joints, stiffness in her joints, severe memory loss, mental confusion, irritability,

6

shortness of breath, severe migraines, itching, nausea, dizziness, numbness in her extremities,

7

8
9
10
11
12

Prior to being implanted with Mentor’s MemoryGel Silicone breast implants, Mize

However, after her implant surgery with the product, Mize began experiencing extreme

vision dysfunction, skin rashes, signs of silicone toxicity, autoimmune issues, weight gain,
hormonal problems, heart palpitations, and extreme sensitivity to coldness.
102.

Mize’s vision deteriorated to the point that had to get prescription glasses and her chronic

fatigue was so pervasive and continuous that there were many days she could not even get out of
bed in the morning.
103.

Eventually, Mize had to give up her music and singing in the band as a result of the

13
chronic fatigue and other symptoms which prevented her from performing.
14
104.

Mize also missed several business opportunities due to her chronic fatigue and other

15
16
17
18
19
20

symptoms.
105.

Although Mize reported her worsening symptoms to her physicians, none of them made

the connection between these physical ailments and her Mentor MemoryGel Silicone breast
implants.
106.

In or around the latter part of 2016, Mize reported to her physician that her left breast

21

implant was causing her severe pain. Her physician ordered an MRI, which was conducted on or

22

about December 6, 2016.

23

107.

24

filled breast implants. Specifically, the imaging showed that Mize’s right breast implant had

25

ruptured.

26

108.

27

that her erythrocyte sedimentation rate (“Sed rate”) was elevated indicating the possibility that

28

she was suffering from a disease linked to inflammation.

The results of this MRI revealed, for the first time, a problem with Mize’s silicone gel-

On or about December 29, 2016, Mize had testing performed on her blood which showed

PLAINTIFFS’ THIRD AMENDED COMPLAINT
17

81

APp. 3^
1

109.

2

showed she was potentially suffering from an inflammatory disease, Mize agreed to undergo a

3

bilateral explantation surgery, which occurred on January 3, 2017.

4

110.

5

“capsule” that had formed around the implants) as well as removal of the implants.

6

111.

7

in breast tissue outside of the capsule layer) and left intracapsular (escaped silicone gel confined

8
9
10
11
12

After learning that her silicone gel-filled breast implants had ruptured and that testing

That procedure entailed a bilateral total capsulectomy (removal of the scar tissue or

The postoperative findings revealed there was a right extracapsular (escaped silicone gel

by the surrounding fibrous capsule) ruptures of Mize’s silicone gel-filled breast implants.
112.

The operative report note: “both implant capsular complexes were examined. There was

obvious silicone present on the outer capsule of the right side. Both capsules were incised. There
was obvious free silicone gel on the right side and surprisingly some stranding of the silicone gel
on the left side as well. Closer examination of the left implant showed smooth, round, 400 cc of

13
silicone implant with a small hole. The right side showed smooth, round, 400 cc silicone gel
14
implant with large tear.”
15
16
17
18
19
20

113.

On or about January 5, 2017, the surgical pathology report from Mize’s explantation

surgery reported the following diagnosis: Left breast, capsulectomy - hyalinized [thickened]
fibrous tissue with calcifications, foamy macrophages, and focal chronic inflammation. Right
breast, capsulectomy - hyalinized fibrous tissue with histiocytic reaction to foreign material,
calcifications, and focal chronic inflammation.

21

114.

After her explantation surgery, the majority of Mize’s symptoms and injuries caused by

22

the Mentor silicone gel-filled implants have improved. Mize no longer needs to use prescription

23

eyeglasses, her chronic fatigue has been decreased and her mental clarity has improved. But she

24

has still not fully recovered.
IV.

25
26

115.

27

III

28

III

DELAYED DISCOVERY

Mize adopts and incorporates the forgoing allegations as if fully set forth herein.

PLAINTIFFS’ THIRD AMENDED COMPLAINT
18

82

Afp. 4-0
1

116.

2

injuries, and could not have discovered that her injuries were caused by the product at an earlier

3

time.

4

117.

5

knew, or through the exercise of reasonable care and diligence, should have known of the

6

existence of her claims against all Defendants.

7
8

9
10
11
12

118.

Mize exercised reasonable diligence in investigating her injuries and the cause of her

The discovery rule applies to toll the running of the statute of limitations until Mize

The nature of Mize’s injuries and subsequent damages, and their causal relationship to

the product were not, and could not, have been discovered through reasonable care and diligence.
119.

Mize did not suspect, nor did she have reason to suspect, that her injuries were being

caused by the product, or the tortious nature of the conduct causing those injuries, until less than
the applicable limitations period prior to the filing of this action.
120.

Mize did discover that her injuries were related to her silicone gel-filled breast implants

13
until after December 6, 2016.
14
121.

None of Mize’s treating physicians had connected her injuries with her silicone gel-filled

15
16
17
18
19
20

21

breast implants before, at the earliest, December 6, 2016.
122.

Handel destroyed the records relating to Mize’s implantation surgeiy and his care for her,

including pre-surgery consultations and post-surgery follow ups.
123.

The only information available to Mize consists of the product stickers showing the lot

number, manufacturer and date she was implanted with Mentor’s MemoryGel Silicone Gel-filled
Implants.

22

124.

Mize was never adequately advised that she was part of a study and was never told to

23

follow up with Handel or Mentor for purposes of that study.

24

125.

25

told her that the implants he intended to use had not yet been approved for sale by the FDA and

26

also failed to advise her of other relevant and material facts.

27

126.

28

concealed from Mize the true and significant risks associated with the product.

Handel never advised Mize that she was receiving the implants as part of a study, never

Defendants, through their affirmative misrepresentations and omissions, actively

PLAINTIFFS’ THIRD AMENDED COMPLAINT
19

83

Af>£ 4-1
1

127.

Handel, through his affirmative misrepresentations and material omissions, actively

2

concealed from Mize the true nature of the surgical procedure she underwent for implantation of

3

her Mentor MemoryGel silicone gel-filled breast implants.

4

128.

Under CCP § 340.5, the statute of limitations against a healthcare provider based upon

5 ' negligence commences three years after the date of injury or one year after the plaintiff
6

discovers, or through the use of reasonable diligence should have discovered, the injury. In no

7

event shall the time for commencement of a legal action exceed three years unless tolled for any

8
9

10
11
12

of the following: (1) upon proof of fraud, (2) intentional concealment, or (3) the presence of a
foreign body.
129.

Handel intentionally concealed material information from Mize and she did not discover

that her injuries were potentially related to her silicone gel-filled breast implants until, at the
earliest, December 6, 2016.

13
130.

Mize did not learn that she was allegedly a participant in a study until Mentor’s counsel

14
informed Plaintiffs’ counsel on June 30, 2017 that Ms. Mize was allegedly part of Mentor’s

15
16
17
18
19
20

Adjunct clinical study. This newly discovered information was relayed to Ms. Mize on June 30,
2017. As such, this action is timely filed.
131.

Further, Defendants are estopped from asserting a statute of limitations defense because

all Defendants fraudulently concealed from, and misrepresented to, Plaintiff the connection
between the injuries sustained and the Defendants’ tortious conduct.
CAUSES OF ACTION

21
22

FIRST CAUSE OF ACTION

23

NEGLIGENCE AND NEGLIGENCE PER SE
(Plaintiff Rexina Mize as Against Defendant MENTOR WORLDWIDE LLC)

24
25

132.

Plaintiffs incorporate by reference all previous and subsequent paragraphs of this

26

Complaint as if fully set forth here and further alleges as follows:

27

133.

28

making, creating, labeling, packaging, testing, constructing, assembling, advertising,

At all relevant times, Mentor had a duty to Mize to use reasonable care in formulating,

PLAINTIFFS’ THIRD AMENDED COMPLAINT
20

84

Aff- 421

manufacturing, selling, distributing, marketing, and promoting its MemoryGel Silicone Gel

2

Breast Implants.

3

134.

4

advertised, manufactured, sold, distributed, marketed, and promoted its MemoryGel Silicone Gel

5

Breast Implants, including the product that was implanted into Plaintiff Rexina Mize.

6
7
8

9
10

11
12

Mentor formulated, made, created, labeled, packaged, tested, constructed, assembled,

A.
135.

Negligent Failure to Warn

Mentor had a duty under California law to exercise reasonable care to provide adequate

warning about the risks and dangers of Mentor MemoryGel Silicone Gel Breast Implants that
were known or knowable to Defendants at the time of distribution.
136.

Mentor was negligent by not using reasonable care to warn about the dangers of which it

was aware related to its silicone gel-filled breast implants, including the MemoryGel implants
placed in Mize or facts that this product was likely to become dangerous after being implanted

13
into her body.

14
137.

Mentor knew or reasonably should have known that the its silicone gel-filled breast

15
16
17
18
19
20

implants, including the MemoryGel implants placed in Mize, were dangerous or were likely to
be dangerous when used or misused in a reasonably foreseeable manner.
138.

Defendants breached their duty under federal law, and the parallel state duty, in that they

failed to warn the FDA, Mize and her physicians by not reporting the risk of serious defects and
life-altering complications described herein that Defendants knew or should have known were

21

associated with Mentor’s MemoryGel Silicone Gel Breast Implants prior to the time of

22

Plaintiffs implantation, including the actual level of risk and failure to communicate adverse

23

events similar to the injuries suffered by Plaintiff.

24

139.

25

evaluation) to the FDA, all IRBs, and investigators within 10 working days after notification by

26

the investigator. 21 CFR 812.150(b). This duty is parallel to the state law duty to exercise

27

reasonable care to provide adequate warning about the risks and dangers associated with their

28

product.

Specifically, Mentor had a duty to report unanticipated adverse device effects (with

PLAINTIFFS’ THIRD AMENDED COMPLAINT
21

85

A?p. 4s
1

140.

2

report adverse events and risks associated with the use of its products.

3

141.

4

adequately warning Mize and Mize’s treating physicians about the dangers of Mentor

5

MemoryGel silicone breast implants that were known or knowable to Defendants at the time of

6

distribution or which became known thereafter.

7
8

9
10
11
12

142.

Under both federal and state law, Mentor also had a continuing duty to monitor and

Under both federal and state law, Mentor had a duty to exercise reasonable care in

Under both federal and state law, and under the IDE and studies mandated by the FDA,

Mentor had a duty to continue to monitor and report adverse events and risks associated with the
product.
143.

Despite having knowledge and possession of information that showed the use of Mentor

MemoiyGel silicone breast implants were dangerous and likely to place consumers’ health at
serious risk, Mentor failed to disclose and warn of the health hazards and risks associated with

13
the product.
14
144.

Instead, Mentor marketed, advertised, and promoted the product while failing to monitor,

15
16
17
18
19
20

warn, or otherwise ensure the safety and efficacy of its users in violation of California law and
applicable FDA regulations and requirements.
145.

Mentor also had a duty to continue to monitor and submit subsequent reports on the

effect may be required by FDA. Mentor, as the device manufacturer, failed to comply with the
FDA mandated requirement to continue to monitor the use of its product to determine the safety

21

and effectiveness, and to report any findings of adverse health consequences that may be

22

attributable to the product to the FDA.

23

146.

24

Mentor gained knowledge, which it was under a duty to communicate to the FDA and physicians

25

which did not exist at the time Mize was implanted with Mentor’s product.

26

147.

27

would have led to adverse event reports revealing the product’s contribution to serious injury.

28

III

This duty is parallel to the post-sale duty to warn under California law and applies as

Mentor failed to report adverse events from the studies it was required to conduct, which

PLAINTIFFS’ THIRD AMENDED COMPLAINT
22

86

AfV- 441

148.

2

information about: instances of silicone toxicity; instances of adverse events; instances of

3

adverse events requiring removal; instances of constellations of adverse symptoms; instances of

4

chronic/persistent autoimmune-like complaints and inflammatory issues; rupture rates; and other

5

relevant information would have been provided to the FDA and would have been available to

6

Mize’s treating physicians, who would have communicated that information to Mize.

7

149.

8

9
10
11
12

Had Mentor complied with its obligation to report this newly acquired information, true

Mentor was, at all times, responsible for maintaining the labeling of the product, and had

the ability under federal law, and the duty under state and federal law, to directly warn healthcare
providers and consumers by updating the labeling of Mentor MemoryGel silicone breast
implants to reflect newly acquired safety information without advance approval by the FDA.
150.

During the IDE process, Mentor was under a duty to advise the FDA, IRB and study

investigators of all significant new information, including the duty to monitor, evaluate and

13
report all unanticipated adverse device effects and to terminate the investigation, or portions of it,
14
if that effect presents an unreasonable risk to subjects. See, 21 CFR 812.46.
15
16
17
18
19
20

21

151.

Mentor was specifically required to report all unanticipated adverse device effects (with

evaluation) to FDA, all IRBs, and investigators within 10 working days after notification by the
investigator. See, 21 CFR 812.150(b).
152.

California imposes a parallel duty to warn and advise product users.

153.

Once Mentor applied for pre-market approval for is MemoryGel Silicone Gel-Filled

Implants, it had additional duties and responsibilities. This included the responsibility to file a

22

“Special PMA Supplement - Changes Being Effected” (“CBE”) by which Mentor could

23

unilaterally update the product labeling to reflect newly acquired safety information without

24

advance approval by the FDA. 21 CFR § 814.39(d). These changes include:
a.

25

labeling changes that add or strengthen a contraindication, warning, precaution, or

26

information about an adverse reaction for which there is reasonable evidence of a causal

27

association;

28

III

PLAINTIFFS’ THIRD AMENDED COMPLAINT
23

87

Ap(2 45
1
2

b.

labeling changes that add or strengthen an instruction that is intended to enhance

the safe use of the device;

3

c.

4

indications; and

5

d.

6
7
8

9
10
11
12

labeling changes that ensure it is not misleading, false, or contains unsupported

changes in quality controls or manufacturing process that add a new specification

or test method, or otherwise provide additional assurance of purity, identity, strength, or
reliability of the device.
154.

Mentor breached their duties under federal law and state law, including California law, to

maintain labeling that: (a) added instructions for use that would enhance the safe use of the
device; and (b) added descriptions of adverse events to ensure that the labeling was not false or
misleading.
155.

The FDCA requires medical device manufacturers like Defendants to maintain and

13
submit information as required by FDA regulation, 21 U.S.C. § 360i, including submitting
14
Adverse Reaction Reports, 21 CFR § 803.50, and establishing internal procedures for reviewing
15
16
17
18
19
20

21

complaints and event reports, 21 CFR § 820.198(a).
156.

Specifically, 21 CFR § 803.50 requires a manufacturer to report information no later than

30 days after it is received, from any source, if that information suggests that the device may
have contributed to a serious injury, or has malfunctioned and the malfunction would be likely to
contribute to a serious injury if it were to recur.
157.

The FDA publishes this information in a public, searchable Internet database called

22

MAUDE (Manufacturer and User Facility Device Experience) and updates the report monthly

23

with “all reports received prior to the update.” The general public, including physicians and

24

patients, may use the MAUDE database to obtain safety data on medical devices.

25

158.

26

Implants were dangerous and likely to place users at serious risk to their health, Defendants

27

failed to disclose and warn of the health hazards and risks associated with Mentor MemoryGel

28

Silicone Gel Breast Implants.

Despite the fact that evidence existed that Mentor MemoryGel Silicone Gel Breast

PLAINTIFFS’ THIRD AMENDED COMPLAINT
24

88

APf.
1

159.

2

MemoryGel Silicone Gel Breast Implants while failing to warn or otherwise ensure the safety of

3

its users in violation of state law, including California law and applicable FDA regulations.

4

160.

5

events to healthcare providers and the public to ensure its labeling and product were not

6

misbranded. Health & Saf. Code, §§ 111440 (“it is unlawful for any person to manufacture, sell,

7

8
9
10
11
12

Instead, Defendants manufactured, marketed, sold, advertised, and promoted Mentor

Mentor had the ability and the duty under state law to disclose its knowledge of adverse

deliver, hold, or offer for sale any drug or device that is misbranded”), 111445 (“it is unlawful
for any person to misbrand any drug or device.”).
161.

Under parallel federal law, Defendants had the ability to disclose its knowledge of

adverse events to healthcare providers and the public to ensure its labeling and product were not
misbranded. 21 U.S.C. § 331 (“the following acts and the causing thereof are prohibited: (a) the
introduction... of any device that is ...misbranded, (b)the ...misbranding of any ...device...).

13
162.

Had Defendants timely and adequately reported the adverse events to the FDA, it would

14
have effectively warned physicians of those adverse events both directly and through discussion
15
16
17
18
19

20

of those events that would have followed in the literature and at meetings. Thus, additional
information would have been available to the public, including Mize’s treating physicians,
regarding the dangers of Mentor MemoryGel Silicone Gel Breast Implants that were known or
knowable to Defendants at the time of distribution and afterwards.
163.

If Plaintiff had been adequately warned of the serious risks and adverse events by

21

Defendant Mentor, she would not have agreed to implantation of Mentor MemoryGel Silicone

22

Gel Breast Implants.

23

164.

24

properly and truthfully report the findings from the studies it was required to conduct and to

25

otherwise provide full, complete and accurate information to the FDA and the IRB, that

26

information would have been available to Mize’s treating physicians and they would have been

27

better able to recognize at an earlier date that the symptoms and complications which Mize was

28

experiencing were related to her Mentor MemoryGel Silicone Breast Implants. Had that

Had Mentor complied with its continuing duty to report adverse events and effects, to

PLAINTIFFS’ THIRD AMENDED COMPLAINT
25

89

Aff An
1

occurred, Mize would have been able to undergo the explantation surgery at an earlier date and

2

would have been less severely damaged and injured.

3

165.

4

increased the risk of injury to patients receiving the implant in violation of its duty to establish

5

and maintain procedures for implementing corrective and preventative action. This violated both

6

California law and the requirements the DDE approval process under 21 CFR § 800.100(a)(6)(7).

7

166.

8

9
10
11
12

Mentor was negligent in its record keeping and did not disclose manufacturing flaws that

Mentor also failed to provide proper warnings concerning defects in the device, including

the use of improper and non-conforming component parts and materials, in violation of
California law and its duty under 21 CFR § 812.5(a) to describe “all relevant contradictions,
hazards, adverse effects, interfering substances or devices, warnings and precautions.”
167.

As a proximate and legal result of Mentor’s failure to comply with its obligations under

applicable Federal regulations, Mentor breached its duty of care and caused Mize to suffer severe

13
physical injuries, severe emotional distress, mental anguish, economic loss, and other injuries for
14
which she is entitled to compensatory and other damages in an amount to be proven at trial.
15
B.

16
17
18
19
20

21

168.

Negligent Manufacturing

Mentor had a duty under Federal law, and a parallel duty under California law, to

exercise reasonable care in developing, manufacturing, testing, inspecting and selling their
product to ensure that it was safe and further that it was made in conformity with the
manufacturing and design specifications mandated by the FDA as part of Mentor’s DDE.
169.

Mentor was negligent under California law, in the development, manufacture, testing,

22

inspection and sale of their MemoryGel Silicone Gel Breast Implants by: (a) manufacturing

23

MemoryGel Silicone Gel Breast Implants that differed from the specifications agreed to by the

24

FDA; manufacturing MemoryGel Silicone Gel Breast Implants using materials and components

25

which differed from those approved by the FDA; failing to follow good manufacturing practices

26

during the manufacture of their MemoryGel Silicone Gel Breast Implants; failing to properly

27

meet the applicable standard of care by not complying with applicable federal regulations and

28

failing to adhere to the manufacturing protocols approved by the FDA; carelessly and negligently

PLAINTIFFS’ THIRD AMENDED COMPLAINT
26

90

Af> ?, A?
1

selling and distributing its MemoryGel Silicone Gel Breast Implants in violation of the terms of

2

the IDE and applicable federal law; negligently incorporating components and/or materials into

3

its MemoryGel Silicone Gel Breast Implants that could not stand up to normal usage and/or

4

which differed from those which were commercially reasonable and/or failing to use the

5

components and/or materials approved by the FDA; failing to exercise reasonable care in

6

inspecting and testing of the product; and, failing to exercise reasonable care in its

7

8
9
10
11
12

manufacturing, quality control and quality assurance processes.
170.

Mentor had a duty under California law to exercise ordinary care in the manufacture of

its MemoryGel Silicone Gel Breast Implants consistent with FDA specifications, the Mentor
MemoryGel Silicone Gel Breast Implants IDE, and/or conditions of approval.
171.

At all relevant times, Mentor was required to comply with the FDA's Quality System

Regulations, the requirements under the IDE and design control requirements under 21 CFR

13
820.30.

14
172.

Mentor’s MemoryGel Silicone Gel Breast Implants contained a manufacturing defect

15
16
17
18
19
20

21

when it left Mentor’s possession, in that Mentor’s manufacturing process did not conform to
FDA's Quality System Regulations, the requirements under the IDE and design control
requirements under 21 CFR 820.30.
173.

Upon information and belief, prior to the date that the subject implants were

manufactured Mentor has received several Form 483 notifications and otherwise was aware that
its manufacturing process was deficient and that the implants being produced did not comply

22

with applicable Federal requirements.

23

174.

24

assurance, quality control, and/or distribution of its MemoryGel Silicone Gel Breast Implants.

25

175.

26

in the manufacture and assembly of its MemoryGel Silicone Gel Breast Implants.

27

176.

28

Implants after completion of assembly.

Mentor failed to exercise ordinary care in the manufacture, sale, testing, quality

Mentor failed to adequately inspect, test, and validate the materials and components used

Mentor failed to adequately inspect, test, and validate its MemoryGel Silicone Gel Breast

PLAINTIFFS’ THIRD AMENDED COMPLAINT
27

91

Afp- ¥\
1

177.

2

Federal requirements for the manufacture of its MemoryGel Silicone Gel Breast Implants.

3

178.

4

Mize’s MemoryGel Silicone Gel Breast Implants were defective and were further vulnerable to

5

degradation, deterioration, rupture and leakage.

6

179.

7
8

9
10
11
12

Mentor failed to comply with the requirements imposed by the FDA and other applicable

Because Mentor failed to follow specifications, regulations, and required by the FDA,

Upon information and belief, when the MemoryGel Silicone Gel Breast Implants placed

into Mize were manufactured, Mentor had the technological capability to manufacture its
MemoryGel Silicone Gel Breast Implants in a reasonably safe manner.
180.

Mentor was negligent in its record keeping and did not disclose manufacturing flaws that

increased the risk of injury to patients receiving the implant in violation of its duty to establish
and maintain procedures for implementing corrective and preventative action. This violated both
California law and the requirements the IDE approval process under 21 CFR § 800.100(a)(6)(7).

13
181.

Mentor also failed to provide proper warnings concerning defects in the device, including

14
the use of improper and non-conforming component parts and materials, in violation of
15
16
17
18
19
20

21

California law and its duty under 21 CFR § 812.5(a) to describe “all relevant contradictions,
hazards, adverse effects, interfering substances or devices, warnings and precautions.”
182.

Upon information and belief, Mize was implanted with Mentor MemoryGel Silicone Gel

Breast Implants with manufacturing defects, manufactured with nonconforming materials and
uncertified components, in violation of the FDA requirements, resulting in product failure and
serious injury to her.

22

183.

23

identified therein. Mize and her treating physicians were unaware that the product was defective

24

at the time of implant and for years thereafter.

25

184.

26

designed to protect, and Mize’s injuries are of the type of harm these statutes and regulations are

27

designed to prevent.

28

III

The injuries Mize suffered are expected to result from the manufacturing defects

Mize is within the class of persons the statutes and regulations referred to herein were

PLAINTIFFS’ THIRD AMENDED COMPLAINT
28

92

Apf, 5 o
1

185.

2

alleged herein.

3

186.

4

resulting defective condition of its MemoryGel Silicone Gel Breast Implants implanted into

5

Mize, she suffered injuries and will continue to suffer injuries in the future including severe

6

physical injuries, severe emotional distress, mental anguish, economic loss, future follow-up

7

medical care, medical treatment, and procedures, and other injuries for which she is entitled to

8

9

Mentor’s violations of these statutes and regulations proximately caused Mize’s injuries

As a proximate and legal result of Mentor’s failure to exercise reasonable care and the

compensatory and other damages in an amount to be proven at trial.
187.

WHEREFORE, Plaintiff prays for judgment against Defendants as hereinafter set forth.

10

SECOND CAUSE OF ACTION

11

STRICT PRODUCTS LIABILITY - FAILURE TO WARN

12

(Plaintiff Rexina Mize as Against Defendant MENTOR WORLDWIDE LLC)

13
188.

Plaintiffs incorporate by reference all previous and subsequent paragraphs of this

14
Complaint as if fully set forth herein and further allege as follows:

15
16
17
18
19
20

189.

At all times relevant herein, Mentor was engaged in the business of designing,

developing, manufacturing, testing, packaging, promoting, marketing, distributing, labeling,
and/or selling Mentor MemoryGel Silicone Gel Breast Implants.
190.

At all times relevant herein, Mentor intended for the MemoryGel Silicone Gel Breast

Implants to be surgically implanted into the bodies of members of the general public, including

21

Mize, and knew or should have known that the product would be surgically implanted into

22

members of the general public, including Mize.

23

191.

24

altering complications described herein rendering the device defective and unreasonably

25

dangerous.

Mize failed to warn Plaintiff and her physicians of the risk of serious defects and life

26
27
28

192.

Mentor also failed to revise the product labeling or otherwise communicate the true rate

of occurrence of adverse events to the FDA, the IRB or to physicians based upon the adverse

PLAINTIFFS’ THIRD AMENDED COMPLAINT
29

93

AW, 6i
1
2
3

event information available to it through, among other things, the studies which it was required
to conduct and the reports of adverse events and effects which it received.
193.

Mize’s Mentor MemoryGel Silicone Gel Breast Implants were defective at the time of

4

sale and distribution and at the time they left the possession of Mentor in that Mentor failed to
5

adequately warn of the risks that the product was vulnerable to degradation, deterioration,
6
ruptures, and leakage, and other injuries associated with Mentor MemoryGel Silicone Gel Breast
7

8
9
10
11
12

Implants.
194.

The MemoryGel Silicone Gel Breast Implants were defective and unreasonably

dangerous when they left the possession of Mentor in that they contained warnings insufficient to
alert physicians and consumers, including Mize, of the dangerous risks and complications
associated with the MemoryGel Silicone Gel Breast Implants, including but not limited to, their

13

propensity to cause injury, through leakage of the silicone gel into the tissues of the user's body,

14

thereby introducing toxic metals and chemicals into those tissues, resulting in serious, dangerous

15

and harmful side effects and complications all to the detriment of the health and well-being of

16

the users of their product, including Mize.

17

195.

18

metals and toxic chemicals in such quantities that would be extremely harmful to users of their

19

product if the gel were allowed to escape its shell and "bleed" into the user's body.

20

196.

21

seepage of the gel through the shell and into the tissues of the user's body.

22

197.

23

including Mize, of these potential serious and harmful risks.

24

198.

25

necessary in order to market and sell the product, and thus failed to report to, and warn, the FDA

26

Mentor knew, or should have known, the gel contained in the implants contained

Mentor also knew, or should have known, that there was a significant risk of rupture or

Mentor failed to adequately warn physicians and patients implanted with the product,

Mentor failed to provide follow-through post-approval studies required by the FDA’s

and the IRB of the risks described above.

27

28

III

PLAINTIFFS’ THIRD AMENDED COMPLAINT
30

94

M9- 5z
1

199.

2

MemoryGel Silicone Gel Breast Implants were not readily recognizable to the ordinary

3

consumer, including Mize and Mize’s treating physicians, as a result of Mentor’s conduct.

4

200.

5

dangerous due to inadequate warnings and/or instruction because Mentor knew or should have

6

known that the products created a serious risk of degradation, deterioration, ruptures, and

7
8

9
10
11
12

The accurate rate of occurrence for these and other injuries associated with Mentor

Mentor MemoryGel Silicone Gel Breast Implants were defective and unreasonably

leakage, and other injuries that could, and did, harm consumers, including Mize, and Mentor
failed to adequately warn consumers of said risks - including Mize and Mize’s treating
physicians - in accordance with Federal requirements and California law.
201.

Mentor’s MemoryGel Silicone Gel Breast Implants were defective and unreasonably

dangerous due to inadequate warnings and instructions because Mentor knew or should have
known that Mentor MemoryGel Silicone Gel Breast Implants created, among other things, a

13
higher than expected risk for adverse events, and Mentor failed to adequately warn of those risks,
14
to monitor those risks, report them, test for them, and update its labeling and the information
15
16
17
18
19
20

21

provided to the FDA and IRB regarding such risks when the information became available.
202.

Mentor failed to keep required records and did not disclose manufacturing flaws that

increased the risk of injury to patients receiving the implant in violation of its duty to establish
and maintain procedures for implementing corrective and preventative action. This violated both
California law and the requirements the IDE approval process under 21 CFR § 800.100(a)(6)(7).
203.

Mentor also failed to provide proper warnings concerning defects in the device, including

22

the use of improper and non-conforming component parts and materials, in violation of

23

California law and its duty under 21 CFR § 812.5(a) to describe “all relevant contradictions,

24

hazards, adverse effects, interfering substances or devices, warnings and precautions.”

25

204.

26

and implanted into her as intended by Mentor and in a manner reasonably foreseeable to Mentor.

27

205.

28

Mize’s implanting physician without substantial change in the condition in which they were sold.

At all relevant times, Mize’s Mentor MemoryGel Silicone Gel Breast Implants were used

Mentor’s MemoryGel Silicone Gel Breast were expected to, and did, reach Mize and

PLAINTIFFS’ THIRD AMENDED COMPLAINT
31

95

AfY- 53
1

206.

2

MemoryGel Silicone Gel Breast Implants were unreasonably dangerous and likely to place users

3

at serious risks to their health, Mentor failed to monitor and warn of the defects, health hazards,

4

and risks associated with Mentor MemoryGel Silicone Gel Breast Implants.

5

207.

6

of sale and distribution, and at the time the devices left the possession of Mentor, in that the

7
8

9
10
11
12

Despite the fact that Mentor knew, or should have known, that the use of Mentor

Mize’s Mentor MemoryGel Silicone Gel Breast Implants were also defective at the time

devices differed from Mentor’s intended result and design specifications as approved by the
FDA
208.

Upon information and belief, Mize was implanted with Mentor MemoryGel Silicone Gel

Breast Implants with manufacturing defects, manufactured with nonconforming materials and
uncertified components, in violation of the specifications and requirements approved and
mandated by the FDA, resulting in product failure and serious injury to Mize.

13
209.

The injuries Mize suffered are expected to result from the manufacturing defects

14

identified therein and by the FDA. Mize and her treating physicians were unaware that the
15
16
17
18
19
20

21

product was defective at the time of implant and for years thereafter.
210.

Mentor violated Federal regulations and California law, by placing the Mentor

MemoryGel Silicone Gel Breast Implants into the stream of commerce in a defective and
unreasonably dangerous condition.
211.

Mentor was, at all times, responsible for maintaining the labeling of the product, and had

the ability under federal law, and the duty under state and federal law, to directly warn healthcare

22

providers and consumers by updating the labeling of Mentor MemoryGel silicone breast

23

implants to reflect newly acquired safety information without advance approval by the FDA.

24

212.

25

investigators of all significant new information, including the duty to monitor, evaluate and

26

report all unanticipated adverse device effects and to terminate the investigation, or portions of it,

27

if that effect presents an unreasonable risk to subjects. See, 21 CFR 812.46.

28

III

During the IDE process, Mentor was under a duty to advise the FDA, IRB and study

PLAINTIFFS’ THIRD AMENDED COMPLAINT
32

96

Nt9- 641

213.

2

evaluation) to FDA, all IRBs, and investigators within 10 working days after notification by the

3

investigator. See, 21 CFR 812.150(b).

4

214.

California imposes a parallel duty to warn and advise product users.

5

215.

Once Mentor applied for pre-market approval for is MemoryGel Silicone Gel-Filled

6

Implants, it had additional duties and responsibilities. This included the responsibility to file a

7
8

9

“Special PMA Supplement - Changes Being Effected” (“CBE”) by which Mentor could
unilaterally update the product labeling to reflect newly acquired safety information without
advance approval by the FDA. 21 CFR § 814.39(d). These changes include:

10
11
12

Mentor was specifically required to report all unanticipated adverse device effects (with

a.

labeling changes that add or strengthen a contraindication, warning, precaution, or

information about an adverse reaction for which there is reasonable evidence of a causal
association;

13
b.

labeling changes that add or strengthen an instruction that is intended to enhance

14
the safe use of the device;
15
c.

16
17

indications; and

d.

18
19
20

labeling changes that ensure it is not misleading, false, or contains unsupported

changes in quality controls or manufacturing process that add a new specification

or test method, or otherwise provide additional assurance of purity, identity, strength, or
reliability of the device.

21

216.

22

maintain labeling that: (a) added instructions for use that would enhance the safe use of the

23

device; and (b) added descriptions of adverse events to ensure that the labeling was not false or

24

misleading.

25

217.

26

submit information as required by FDA regulation, 21 U.S.C. § 360i, including submitting

27

Adverse Reaction Reports, 21 CFR § 803.50, and establishing internal procedures for reviewing

28

complaints and event reports, 21 CFR § 820.198(a).

Mentor breached their duties under federal law and state law, including California law, to

The FDCA requires medical device manufacturers like Defendants to maintain and

PLAINTIFFS’ THIRD AMENDED COMPLAINT
33

97

Afp,
1

218.

2

30 days after it is received, from any source, if that information suggests that the device may

3

have contributed to a serious injury, or has malfunctioned and the malfunction would be likely to

4

contribute to a serious injury if it were to recur.

5

219.

6

MAUDE (Manufacturer and User Facility Device Experience) and updates the report monthly

7

8
9
10
11
12

Specifically, 21 CFR § 803.50 requires a manufacturer to report information no later than

The FDA publishes this information in a public, searchable Internet database called

with “all reports received prior to the update.” The general public, including physicians and
patients, may use the MAUDE database to obtain safety data on medical devices.
220.

Despite the fact that evidence existed that Mentor MemoryGel Silicone Gel Breast

Implants were dangerous and likely to place users at serious risk to their health, Defendants
failed to disclose and warn of the health hazards and risks associated with Mentor MemoryGel
Silicone Gel Breast Implants.

13
221.

Mentor MemoryGel Silicone Gel Breast Implants had a manufacturing defect when they

14
left Mentor’s possession in that Mentor’s manufacturing process did not comply with the FDA's
15
16
17
18
19
20

Quality System Regulations, the requirements under the IDE and design control requirements
under 21 CFR 820.30.
222.

The defects inherent in Mentor MemoryGel Silicone Gel Breast Implants were not

readily recognizable to the ordinary consumer, including Plaintiff and/or Plaintiff’s implanting
physician.

21

223.

22

mentioned and perceived their true danger.

23

224.

24

knowledge, and judgment of Mentor, including Defendant Mentor, when she consented to the

25

implantation procedure using Mentor MemoryGel Silicone Gel Breast Implants.

26

225.

27

used and implanted as intended by Mentor and in a manner reasonably foreseeable to Mentor.

28

III

Plaintiff could not, in the exercise of reasonable care, have discovered the defects herein

Plaintiff and/or Plaintiff’s implanting physician reasonably relied upon the skill, superior

At all relevant times, Plaintiff’s Mentor MemoryGel Silicone Gel Breast Implants were

PLAINTIFFS’ THIRD AMENDED COMPLAINT
34

98

Afp, 5U
1

226.

2

the risks of Mentor MemoryGel Silicone Gel Breast Implants, she would not have used them.

3

227.

4

properly and truthfully report the findings from the studies it was required to conduct and to

5

otherwise provide full, complete and accurate information to the FDA and the LRB, that

6

information would have been available to Mize’s treating physicians and they would have been

7
8
9
10
11
12

Had Plaintiff and/or Plaintiff s physician received adequate warnings regarding the risks

Had Mentor complied with its continuing duty to report adverse events and effects, to

better able to recognize at an earlier date that the symptoms and complications which Mize was
experiencing were related to her Mentor MemoryGel Silicone Breast Implants. Had that
occurred, Mize would have been able to undergo the explantation surgery at an earlier date and
would have been less severely damaged and injured.
228.

Mentor’s MemoryGel Silicone Gel Breast Implants were expected to, and did, reach

Mize and/or Mize’s implanting physician without substantial change in the condition in which

13
they were sold.
14
229.

Mentor knew that its MemoryGel Silicone Gel Breast Implants would be used by the

15
16
17

18
19
20

ordinary purchaser or user without inspection for defects and without knowledge of the hazards
involved in such use.
230.

At all times relevant to this action, the dangerous propensities of Mentor MemoryGel

Silicone Gel Breast Implants were known to Mentor or were reasonably and scientifically
knowable to them, through appropriate research and testing by known methods, at the time they

21

distributed, supplied, or sold the device, and not known to ordinary physicians who would be

22

expected to implant Mentor MemoryGel Silicone Gel Breast Implants for their patients,

23

including Mize.

24

231.

25

community under federal and California law, but failed to do so in a timely, truthful, accurate

26

and responsible manner.

27

232.

28

would have been effective warnings to physicians, including Mize’s treating physicians, of those

Mentor was required to provide adequate warnings to consumers and the medical

Had Mentor timely and adequately reported adverse events to the FDA and IRB, there

PLAINTIFFS’ THIRD AMENDED COMPLAINT
35

99

Ai>p. 57
1

adverse events both directly and through discussion of those events that would have followed in

2

the literature and at meetings. Thus, additional information would have been available to the

3

public, including Mize and/or Mize’s treating physicians, regarding the dangers of Mentor

4

MemoryGel Silicone Gel Breast Implants that were known or knowable to Mentor at the time of

5

distribution.

6

233.

7
8

9
10
11
12

Had Mentor complied with its continuing duty to report adverse events and effects, to

properly and truthfully report the findings from the studies it was required to conduct and to
otherwise provide full, complete and accurate information to the FDA and the IRB, that
information would have been available to Mize’s treating physicians and they would have been
better able to recognize at an earlier date that the symptoms and complications which Mize was
experiencing were related to her Mentor MemoryGel Silicone Breast Implants. Had that
occurred, Mize would have been able to undergo the explantation surgery at an earlier date and

13
would have been less severely damaged and injured.
14
234.

Because Mentor failed to follow specifications, regulations, and required the FDA and

15
16
17
18
19
20

21

applicable Federal regulations and requirements, the Mentor MemoryGel Silicone Gel Breast
Implants implanted in Mize were vulnerable to degradation, deterioration, ruptures, and leakage.
235.

Mentor’s MemoryGel Silicone Gel Breast Implants were manufactured, distributed,

tested, sold, marketed, promoted, advertised, and represented defectively by Defendants, and this
was a substantial contributing factor in bringing about Mize’s injuries, which would not have
occurred but for the use of Mentor MemoryGel Silicone Gel Breast Implants.

22

236.

The defective warnings and failures to provide truthful, accurate and complete

23

information as required under the IDE and other applicable Federal regulations and requirements

24

were a substantial contributing factor in bringing about the injuries to Mize that would not have

25

occurred but for the use of Mentor MemoryGel Silicone Gel Breast Implants.

26

237.

27

Implants defective condition at the time they were sold, Mize suffered and will continue to suffer

28

severe physical injuries, severe emotional distress, mental anguish, economic loss, future

As a proximate result and/or substantial factor of Mentor MemoryGel Silicone Gel Breast

PLAINTIFFS’ THIRD AMENDED COMPLAINT
36

100

A?p,
1

medical care and treatment, and other injuries for which she is entitled to compensatory and

2

other damages in an amount to be proven at trial.

3

238.

WHEREFORE, Plaintiffs prays for judgment against Defendants as set forth herein.

4

THIRD CAUSE OF ACTION

5

STRICT PRODUCTS LIABILITY - MANUFACTURING DEFECT

6
7

8
9
10
11

(Plaintiff Rexina Mize as Against Defendant MENTOR WORLDWIDE LLC)
239.

Plaintiffs incorporate by reference all previous and subsequent paragraphs of this

Complaint as if fully set forth here and further alleges as follows:
240.

At all times relevant herein, Mentor was engaged in the business of designing,

developing, manufacturing, testing, packaging, promoting, marketing, distributing, labeling,
and/or selling Mentor MemoryGel Silicone Gel Breast Implants.

12
241.

At all times relevant herein, Mentor intended for the MemoryGel Silicone Gel Breast

13
Implants to be surgically implanted into the bodies of members of the general public, including

14
Mize, and knew or should have known that the product would be surgically implanted into

15
16
17
18
19

members of the general public, including Mize.
242.

Mentor manufactured, tested, marketed, promoted, advertised, distributed, and sold the

Mentor MemoryGel Silicone Gel Breast Implants that were implanted into Mize.
243.

At all times relevant, Mentor placed Mentor MemoryGel Silicone Gel Breast Implants

20

into the stream of commerce, and did so in a manner in which the Mentor MemoryGel Silicone

21

Gel Breast Implants were defective in their manufacturing process did not comply with the

22

FDA's Quality System Regulations, the requirements under the IDE and design control

23

requirements under 21 CFR 820.30.

24

244.

25

Mentor MemoryGel Silicone Gel Breast Implants into the stream of commerce in a defective and

26

unreasonably dangerous condition.

27

245.

28

increased the risk of injury to patients receiving the implant in violation of its duty to establish

Mentor violated Federal regulations and requirements and California law by placing the

Mentor failed to keep required records and did not disclose manufacturing flaws that

PLAINTIFFS’ THIRD AMENDED COMPLAINT
37

101

APf. Sq
1

and maintain procedures for implementing corrective and preventative action. This violated both

2

California law and the requirements the IDE approval process under 21 CFR § 800.100(a)(6)(7).

3

246.

4

the use of improper and non-conforming component parts and materials, in violation of

5

California law and its duty under 21 CFR § 812.5(a) to describe “all relevant contradictions,

6

hazards, adverse effects, interfering substances or devices, warnings and precautions.”

7

8
9
10
11
12

247.

Mentor also failed to provide proper warnings concerning defects in the device, including

Mentor’s MemoryGel Silicone Gel Breast Implants implanted during Mize’s surgery

contained a manufacturing defect. The rupture, leakage, and bleeding of silicone of the Mentor
MemoryGel Silicone Gel Breast Implants implanted into Mize, due to porous or weak
containment in the Implant shell, is inconsistent with specifications and conditions of the FDA's
Quality System Regulations, the requirements under the IDE and design control requirements
under 21 CFR 820.30, and therefore constitutes a manufacturing defect.

13
248.

Mentor knew that the defects in its product were such that they would not be discovered

14
through reasonable inspection by the users of the product, including Mize and Mize’s implanting
15
16
17
18
19
20

21

physician. Mentor knew that its MemoryGel Silicone Gel Breast Implants would be used by the
ordinary purchaser or user without inspection for defects and without knowledge of the hazards
involved in such use.
249.

Mize and her implanting physician, foreseeable users and ultimate consumers of the

Mentor’s product, were unaware of these defects when Mize consented to have the product
implanted in her body.

22

250.

As a direct and legal result of the manufacturing defects contained in Mentor’s

23

MemoryGel Silicone Gel Breast Implants, Mize was injured in her health and well-being as

24

described herein.

25

26

251.

Asa proximate result and/or substantial factor of Mentor MemoryGel Silicone Gel Breast

27

Implants defective condition at the time they were sold, Mize suffered and will continue to suffer

28

severe physical injuries, severe emotional distress, mental anguish, economic loss, future

PLAINTIFFS’ THIRD AMENDED COMPLAINT
38

102

Aff, uo
1
2
3

medical care and treatment, and other injuries for which she is entitled to compensatory and
other damages in an amount to be proven at trial.
252.

WHEREFORE, Plaintiffs prays for judgment against Defendants as hereinafter set forth.

4
5

FOURTH CAUSE OF ACTION
6
LOSS OF CONSORTIUM
7

(Spouse Plaintiff Minh Nguyen as Against All Defendants)

8
9
10
11
12

253.

Plaintiff incorporates by reference all other paragraphs of this complaint as if fully set

forth herein and further allege as follows:
254.

At all relevant times hereto, Plaintiff MINH NGUYEN was and is the lawful spouse of

Plaintiff REXINA MIZE.

13

255.

As a result of the injuries and damages suffered by Plaintiff REXINA MIZE by

14

Defendants’ wrongful conduct as alleged herein, Mize was unable to perform any activities as a

15

spouse in the household.

16

256.

17

to Plaintiff MINH NGUYEN. Plaintiff MINH NGUYEN had to take full control over chores

18

and acts around the house, including but not limited to, laundry, dishes, cooking, errands,

19

cleaning taking Plaintiff REXINA MIZE to medical treatment, and taking care of Plaintiff

20

REXINA MIZE’s needs. Plaintiff MINH NGUYEN effectively lost the companionship and

21

accompaniment of his wife, Plaintiff REXINA MIZE, as a result of Defendants’ wrongful

22

conduct.

23

257.

24

caused by Defendants, Spouse Plaintiff MINH NGUYEN suffered, and will continue to suffer

25

the loss of his wife’s consortium, companionship, society, affection, services and support.

26

258.

Plaintiff REXINA MIZE was unable to take care of the house or provide companionship

As a direct and proximate result of the injuries sustained by Plaintiff REXINA MIZE and

WHEREFORE, Plaintiffs pray for judgment against Defendants as hereinafter set forth.

27

28

III

PLAINTIFFS’ THIRD AMENDED COMPLAINT
39

103

u\
1

FIFTH CAUSE OF ACTION

2

MEDICAL BATTERY

3

(Plaintiff Rexina Mize as Against Defendant Handel)

4

259.

5

forth herein and further allege as follows:

6

260.

7

8
9

10
11

Plaintiffs incorporate by reference all other paragraphs of this complaint as if fully set

Defendant Handel performed a breast augmentation procedure on Mize in Beverly Hills,

California on or about September 27, 2000 using Mentor’s gel-filled breast implants, Ref. No.
350-7400BC, Lot 209120.
261.

Defendant Handel performed this procedure without obtaining Mize’s informed consent,

as Handel did not adequately inform Mize that she would be part of a clinical study or that the
breast implants were not yet FDA-approved.

12
262.

Handel performed an operation on Mize to which she did not consent.

263.

Upon information and belief, Mize gave permission to Handel to perform one type of

13
14
surgery - that is, implanting FDA approved silicone implants - but Handel performed another

15
16
17
18
19
20
21

surgery - that is, implanting silicone implants which had not been approved by the FDA.
264.

Upon information and belief, Mentor alleges that Mize was a participant in its Adjunct

Study under the IDE.
265.

Upon information and Handel was an investigator or leader of this study, but concealed

this information from Mize.
266.

Mize sought breast implant surgery from Handel for primary augmentation purposes.

22

Mize did not meet any of the criteria for inclusion in the Adjunct Study and should have been

23

excluded from this study. Failing to comply with procedures for including Mize in the IDE

24

violated 21 CFR § 812.18

25

267.

26

will continue to suffer severe physical injuries, severe emotional distress, mental anguish,

27

economic loss, future medical care and treatment, and other injuries for which she is entitled to

28

compensatory and other damages in an amount to be proven at trial.

As a proximate result and/or substantial factor of Handel’s conduct, Mize suffered and

PLAINTIFFS’ THIRD AMENDED COMPLAINT
40

104

1

268.

By reason of the foregoing, Mize has been damaged by Handel’s wrongful conduct.

2

269.

WHEREFORE, Plaintiffs prays for judgment against Defendant Handel as set forth

3

herein.

4

SIXTH CAUSE OF ACTION

5

FAILURE TO OBTAIN INFORMED CONSENT

6

(Plaintiff Rexina Mize as Against Defendant Handel)

7
8

9
10

11
12

270.

Plaintiffs incorporate by reference all other paragraphs of this complaint as if fully set

forth herein and further allege as follows:
271.

Handel was negligent because he performed a breast implant surgery on Mize without

first obtaining her informed consent.
272.

Handel performed a breast augmentation procedure on Mize in Beverly Hills, California

on or about September 27, 2000 using Mentor’s gel-filled breast implants, Ref. No. 350-7400BC,

13
Lot 209120. See Exhibit A.
14

273.

Handel intentionally concealed material information from Mize, including but not limited

15
16
17
18
19
20

21

to, that she would be part of a clinical study and that the breast implants she received were not
yet FDA-approved. Thus, Ms. Mize did not give her informed consent to undergo such a
procedure.
274.

Handel failed to obtain Mize’s informed consent for this surgery because he did not

inform Mize that she would be included as a participant in a clinical study, and that the breast
implants being used had not been approved by the FDA.

22

275.

Had Handel told Mize the true and complete facts, including that he was an investigator

23

or was otherwise a leader of a clinical study, that Mize would be a participant in that study and

24

that the breast implants she was to receive were not FDA-approved medical devices, Mize would

25

not have consented to, or undergone the surgery.

26
27
28

276.

Mize sought breast implant surgery from Handel for primary augmentation purposes.

Mize did not meet any of the criteria for inclusion in the Adjunct Study and should have been

PLAINTIFFS’ THIRD AMENDED COMPLAINT
41

105

App. 62>
1
2
3
4

excluded from this study. Failing to comply with procedures for including Mize in the IDE
study violated 21 CFR § 812.18
277.

As a proximate result and/or substantial factor of Handel’s wrongful conduct, Mize

suffered and will continue to suffer severe physical injuries, severe emotional distress, mental

5
anguish, economic loss, future medical care and treatment, and other injuries for which she is
6

entitled to compensatory and other damages in an amount to be proven at trial.
7
8

278.

WHEREFORE, Plaintiffs prays for judgment against Defendants as set forth.
RELIEF REQUESTED

9
10
11

279.

each cause of action alleged and as appropriate to the standing of Plaintiffs, as follows:
(A)

12
13

WHEREFORE Plaintiffs pray for judgment against Defendants and, as appropriate to

Economic and non-economic damages in an amount as provided by law and to be

supported by evidence at trial;

14

(B)

For compensatory damages according to proof;

15

(C)

For prejudgment interest and the costs of suit; and

16

(D)

For such other and further relief as this Court may deem just and proper.

17
18

Dated: April 2,2018

LENZE LAWYERS, PLC

19
20
21
By:
22

JENNIFER A. LENZE
Attorney for Plaintiffs

23
24
25
26

III

27

III

28

III

PLAINTIFFS’ THIRD AMENDED COMPLAINT
42

106

Aft? Utr
1
2

DEMAND FOR JURY TRIAL
Plaintiffs hereby demand individual trials by jury as to all claims so triable in this action.

3
4

Dated: April 2, 2018

LENZE LAWYERS, PLC.

5

6

g?-ts-

7
8

By:
JENNIFER A. LENZE

9

Attorney for Plaintiffs

10
11
12
13
14
15
16
17
18
19
20

21
22
23
24

25
26
27
28

PLAINTIFFS’ THIRD AMENDED COMPLAINT
43

107

Apf. 6>5
1
2
3
4

Jennifer A. Lenze, CA Bar# 246858
Amanda D. McGee, CA Bar# 282034
LENZE LAWYERS, PLC
1300 Highland Avenue, Suite 207
Manhattan Beach, CA 90266
Telephone: (310) 322-8800
Facsimile: (310) 322-8811

5

6
1
8

9
10

Attorneys for Plaintiff
Edward Angwin CA Bar #310305
AN GW IN LAW FIRM
11500 W. Olympic Blvd., Suite 512
Los Angeles, CA 90064
Work: (310)943-9587
Cell: (406)548-7200

11
12

Attorneys for Plaintiff

13

SUPERIOR COURT OF THE STATE OF CALIFORNIA

14
15

FOR THE COUNTY OF LOS ANGELES, CENTRAL CIVIL WEST DISTRICT
Case No.: BC649083

16
17

REXINA MIZE, an individual; MINH NGUYEN,
an individual;

18
19
20

21

Plaintiffs,
v.

Hearing:
Time:
Judge:
Dept.:

MENTOR WORLDWIDE LLC; NEAL
HANDEL, M.D.; and DOES 1-100, inclusive,

22
23

PLAINTIFFS’ OPPOSITION TO
DEFENDANT MENTOR WORLDWIDE,
LLC’S DEMURRER TO PLAINTIFFS’
THIRD AMENDED COMPLAINT

Defendants.

July 11,2018
11:00 a.m.
Honorable Carolyn B. Kuhl
12

Third Amended Complaint Filed 4/2/2018
Second Amended Complaint Filed: 8/17/17
Complaint Filed: 2/2/2017
Trial Date: None

24

25
26
27
28

PLAINTIFFS’ OPPOSITION TO DEFENDANT’S DEMURRER
1

AfpeKlDlX' d

318

. C? I/O
1

TO ALL PARTIES AND THEIR ATTORNEYS OF RECORD HEREIN:

2

Plaintiffs Rexina Mize (“Ms. Mize” or “Plaintiff’) and Minh Nguyen (collectively “Plaintiffs”),

3

hereby oppose the Demurrer to Plaintiffs’ Third Amended Complaint for damages of Defendant Mentor

4

Worldwide, LLC (“Mentor”), being heard by the above-entitled court on July 11, 2018 at 11:00 a m. in

5

Department 309, located in the Central Civil West Courthouse, at 600 South Commonwealth Ave., Los

6

Angeles, CA 90005.

7

This Opposition will be based upon the facts and law set forth in the Memorandum of Points and

8

Authorities served and filed herewith, the pleadings, records and files in this action and on such oral and

9

documentary evidence as may be presented at the hearing of this matter.
Respectfully submitted,

10
11

Dated: June 27, 2018

LENZE LAWYERS, PLC

12
13

\

O? $
Lk

14
15

By.
JENNIFER A. LENZE
Attorney for Plaintiffs

16
17
18
19
20
21
22
23
24
25
26
27
28

PLAINTIFFS’ OPPOSITION TO DEFENDANT’S DEMURRER
2

319

'App, 6'1
1

MEMORANDUM OF POINTS AND AUTHORITIES

2

I - INTRODUCTION

3

Plaintiffs have made claims against Mentor for injuries Ms. Mize alleges were caused by Mentor’s

4

MemoryGel Silicone gel-filled breast implants. The claims made against Mentor in the operative

5

Complaint are for: Negligence and Negligence Per Se; Strict Product Liability - Failure to Warn; Strict

6

Product Liability - Manufacturing Defect; and a derivative claim for Loss of Consortium. See Third

7

Amended Complaint (“TAC”) filed [DATE], Mentor has demurred to each of these claims arguing that

8

they are expressly and impliedly preempted and further demurred to certain of the claims on the basis that

9

they are barred by the learned intermediary doctrine. See Mentor Demurrer (“Demurrer”) to TAC at p. 1-

10

2. Mentor’s arguments are unpersuasive and are not supported by the authority which it cites. Therefore,

11

Mentor’s Demurrer should be overruled.
II - FACTS

12
13

The relevant facts are not in dispute. Plaintiff was surgically implanted with Mentor’s MemoryGel

14

Implants in September 2000. (TAC | 96) and she underwent explant surgery to remove them on January

15

3, 2017. (TAC f 109). Ms. Mize filed the present lawsuit seeking to hold Mentor liable for injuries she

16

alleges were caused by defects in the implants and other wrongful conduct of Mentor. Additional claims

17

have also been made against Neal Handel, M.D. (“Handel”).

18

On January 6, 1992, the United States Food and Drug Administration (“FDA”) called for a

19

voluntary moratorium on the use of silicone gel-filled breast implants until new safety information could

20

be thoroughly reviewed. (TAC ^ 23). Thereafter, the FDA allowed silicone gel-filled implants for use in

21

reconstruction or revision surgery as investigational devices in clinical studies. (TAC f26).

22

Ms. Mize did not fall within the criteria established by the FDA for receiving silicone gel-filled

23

implants as she was not seeking a revision or reconstruction. (TAC f 59). Handel did not disclose that

24

he was acting as an investigator or leader of a study sponsored by Mentor as part of its efforts to convince

25

the FDA to approve the sale of its silicone gel filled implants in the United States, nor did he advise Ms.

26

Mize that the implants he recommended had not been approved for sale and were investigational devices

27

(TAC ffl[ 26, 263-64; 274-75).

28

///
PLAINTIFFS’ OPPOSITION TO DEFENDANT’S DEMURRER
1

320

.u
111 - LEGAL STANDARDS

1
2

A.

Federal Preemption does not bar Parallel State Law Claims

3

The primary argument presented by Mentor in support of the pending demurrer is that the claims

4

made in the TAC are expressly preempted1 under the Medical Device Amendments ("MDA") to the Food,

5

Drug and Cosmetics Act (“FDCA”), specifically 21 U.S.C. § 360k(a), and Riegel v. Medtronic, Inc., 552

6

U S. 312 (2008) (“Rieger). Mentor also argues that these claims are impliedly preempted under Buckman

7

Co. v. Plaintiffs' Legal Comm., 531 U S. 341 (2001) (“Buckman”). Mentor’s arguments are incorrect and

8

governing authority clearly establishes that the claims made in the TAC should be allowed to proceed as

9

they parallel, and do not add to, the federal requirements.

10

As discussed in Riegel, a two-step analysis is used to determine whether a claim is subject to

11

express preemption under § 360k(a). The first step is to determine whether the FDA has established

12

“requirements” for the medical device at issue. (Riegel, 552 U.S. at p. 321). If so, the next step is to

13

determine whether the state law claims seek to impose requirements that relate to safety and effectiveness

14

which are “different from, or in addition to” the FDA requirements. (Riegel, 552 U.S. at pp. 321-322).

15

However, the fact that certain claims made against a medical device manufacturer may be subject to

16

express or implied preemption does not mean that all such claims are preempted. As explained by the

17

court in Coleman v. Medtronic, Inc. (2014) 223 Cal.App.4th 413 (“Coleman”), “[sjtate law causes of

18

action that provide ‘a damages remedy for claims premised on a violation of FDA regulations’ are not

19

expressly preempted if they “‘parallel,’ rather than add to, federal requirements.” 233 Cal. App. 4th at

20

425 (quoting Riegel, 552 U.S. at p. 330).

21

In Buckman, the Court held that MDA prohibits suits by private litigants which seek to enforce the

22

provisions of the FDCA because all such actions “shall be by and in the name of the United States.” 21

23
24

25
26
27
28

1 c

There is a presumption against federal preemption of state laws that operate in traditional state
domains.’ Stengel v. Medtronic Inc., 704 F.3d 1224, 1227 (9th Cir.2013) (en banc) (“Stengel”). Claims
against medical device manufacturersninvolve an area of traditional state law as “‘the historic police
powers of the State include the regulation of health and safety.’ [Citation], ‘Throughout our history the
several States have exercised their police powers to protect the health and safety of their citizens. Because
these are “primarily, and historically,... matter[s] of local concern,” the “States traditionally have had
great latitude under their police powers to legislate as to the protection of the lives, limbs, health, comfort,
and quiet of all persons ’” [Citation] .” Stengel, 704 F.3d at 1229.
PLAINTIFFS’ OPPOSITION TO DEFENDANT’S DEMURRER
2

321

. LA
1

U.S.C. § 337(a). Therefore, a claim is impliedly preempted to the extent that it seeks to enforce an

2

exclusively federal requirement not grounded in traditional state tort law. 531 U.S. 352-53.

3

The Coleman court succinctly summarized the scope of preemption as follows: “The rule that

4

emerges from these cases is that the MDA does not preempt a state-law claim for violating a state-law

5

duty that parallels a federal-law duty under the MDA.” Coleman, 223 Cal. App. 4th at 427.
IV.

6

ARGUMENT

7

A.

8

The claims made in the TAC are not expressly or impliedly preempted because they are all based

9

on state law claims that parallel, but do not add to, the federal requirements imposed by the FDA. Mentor

10

agrees that “Section 360k(a) [], ‘does not prevent a State from providing a damages remedy for claims

11

premised on a violation of FDA regulations’ because the state duties in such a case “parallel,” rather than

12

add to. federal requirements.’ Riegel, 552 U.S. at 330.” Demurrer at p. 5. Because all of the claims which

13

are presented against Mentor in the TAC are such “parallel” claims2, they are not subject to either express

14

or implied preemption. Plaintiffs allegations regarding violations of the FDCA are all based on parallel

15

stateJaw causes of action. Accordingly, these claims are not subject to implied preemption as they are

16

not based solely on enforcement of a federal requirement.

Mize has Sufficiently Alleged Parallel State Law Claims which are not Preempted

17

Mentor attempts to avoid this reality by citing to federal cases in support of the incorrect assertion

18

that “[cjourts routinely find that claims involving breast implants are preempted” and are “subject to

19

dismissal.” A review of the cases cited by Mentor does not support this argument: See, Rowe v. Mentor

20

Worldwide, 297 F.Supp.3d 1288 (M.D. Fla. 2018) (claim for negligent manufacture not preempted); Laux

21

v. Mentor Worldwide, LLC, 2017 WL 5186329 (C.D. Cal. Nov. 8,2017) (claims for manufacturing defect,

22

negligence, and breach of warranty were not dismissed, but summary judgment was granted when plaintiff

23

failed to identify any specific federal requirement which was violated after discovery and expert

24

testimony); Malonzo v. Mentor Worldwide, LLC, 2014 WL 2212235 (N.D. Cal. May 28,2014) (no parallel

25

26
27

28

2 See, e.g., TAC at f 138 (“Defendants breached their duty under federal law, and the parallel state duty
[]”); TAC at *[ 139 (“[tjhis duty is parallel to the state law duty []”); TAC at *J 146 (“[tjhis duty is parallel
to the post-sale duty to warn under California law []”); TAC at U 152 (“California imposes a parallel duty
to warn []”); TAC at *f 161 (duty “under parallel federal law []”); TAC at ^ 168 (“Mentor had a duty under
Federal law, and a parallel duty under California law []”); TAC at ^ 214 (“California imposes a parallel
duty []”)
PLAINTIFFS’ OPPOSITION TO DEFENDANT’S DEMURRER
3

322

Av?. no
1

claims alleged and complaint “only referenced federal requirements and appears to seek to enforce those

2

directly.”); Couvillier v. Allergan Inc. 2011 WL 8879258 (W.D. La. Jan. 20, 2011) (Magistrate’s report

3

and recommendation which sets forth no discussion or analysis); Ford v. Mentor Worldwide, LLC, No.

4

2:13-cv-06317 (E D. La. Dec. 17, 2013) (“Plaintiff does not oppose dismissal of her claims against

5

Mentor”); Harris v. Mentor Worldwide LLC, No. 12-cv-916 (ED. Cal. Aug. 21, 2012) ( “Plaintiff did not

6

file an opposition or statement of non-opposition to Defendants motion.”); Dorsey v. Allergan, 2009 WL

7

703290, at *7 (M.D. Tenn. Mar. 11, 2009) (sole claim was for strict product liability under Tennessee

8

law); Williams v. Allergan USA, Inc., 2009 WL 3294873, at *1, *4 (D. Ariz. Oct. 14, 2009)(granting

9

summary judgment because while “Plaintiffs are correct that claims paralleling the MDA are not

10

preempted, such as where state tort claims are based on violations of federal law, [] Plaintiffs did not

11

allege any such claims in their Complaint ”)

12

In Coleman, which is binding precedent, the plaintiff made claims related to a medical device

13

asserting theories of strict liability and negligence, including allegations of manufacturing defects and

14

failure to warn. After reviewing the applicable law, the Coleman court reversed the trial court’s sustaining

15

the demurrer to the causes of action for “(1) strict liability failure to warn based on a failure to warn the

16

FDA theory, (2) negligence, and (3) manufacturing defect.” Id. at 319. That same result should be reached

17

in the present case and Mentor’s demurrer should be denied.

18

B.

19

Ms. Mize alleges that Mentor failed to report adverse event information to the FDA. This is

20

sufficient at the demurrer stage to state a parallel claim for failure to warn under the analysis set forth in

21

Coleman. The Coleman court concluded that to the extent Coleman’s claims for failure to warn were

22

based on the defendant’s failure to file adverse event reports with the FDA, they were not subject to

23

express or implied preemption and that same result should be reached in the present case. The very case

24

Mentor cites in its Demurrer, Funke v. Sorin Grp. USA, Inc., 147 F. Supp. 3d 1017, 1024 (C D. Cal. 2015)

25

states: “[bjoth Stengel and Coleman demonstrate that a claim alleging a device manufacturer's failure to

26

warn the FDA of something FDA regulations required it to warn about is not preempted—such a failure

27

is both contrary to FDA regulations and California tort law.” Unlike the plaintiff in Funke, in the present

Plaintiffs’ Failure to Warn Claim is Sufficiently Pled

28
PLAINTIFFS’ OPPOSITION TO DEFENDANT’S DEMURRER
4

323

AfP. 11
1

case there are allegations regarding the duty under both federal law and California law which Mentor

2

violated.

3

Mentor misstates the allegations set forth in the TAC by implicitly asserting that Ms. Mize seeks

4

to recover “based on the theory that Mentor had a duty to provide warnings to her physicians that were

5

different from those approved by the FDA.” Demurrer at p. 7. Ms. Mize makes no such claim as she

6

seeks to recover only under parallel claims.3

7

Mentor also seeks to place an evidentiary burden on Ms. Mize with regard to her claim of failure

8

to report adverse events which does not exist under the law. Mentor improperly seeks to conflate the

9

burden of proof applicable in federal court with the pleading burden at the demurrer stage in California

10

courts. Mentor bases its entire argument on the claim that “[ajpplying Coleman, federal courts routinely

11

dismiss claims where the plaintiff does not identify actual instances of unreported adverse events.”

12

(Demurrer at p. 9, bold added). The fact that a claim may not survive a Federal Rule of Civil Procedure

13

12(b)(6) motion to dismiss under the heightened pleading requirements of Ashcroftv. Iqbal, 556 US. 662

14

(2009) and Bell Atlantic Corp. v. Twombly, 550 U S. 544 (2007) does not govern whether that claim is

15

sufficient under California pleading standards.

16

A demurrer tests the legal sufficiency of the complaint to determine whether the allegations state

17

a legally cognizable cause of action and assumes the truth of the factual allegations pleaded.

(Siliga v.

18

Mortgage Electronic Registration Systems, Inc. (2013) 219 Cal.App.4th 75, 81.) The sole inquiry is

19

“whether the complaint states a cause of action as a matter of law.” (McMahon v. Craig (2009) 176

20

Cal.App.4th 1502, 1508-1509, 97 Cal.Rptr.3d 555.) The “complaint ordinarily is sufficient if it alleges

21

ultimate rather than evidentiary facts” Doe v. City of Los Angeles (2007) 42 Cal.4th 531, 550, and

22

allegation of “ultimate fact [] must be accepted as true for purposes of ruling on a demurrer.” (City of

23

Industry v. City of Fillmore (2011) 198 Cal.App.4th 191, 212.)

24
25

26
27
28

3 Mentor also asserts that it cannot be liable for violating a duty to revise its labeling through the Changes
Being Effected (“CBE”) procedure because “|t]hat procedure is permissive, not mandatory.” (Demurrer
at p. 8). Mentor cites no authority which supports this position and the California Supreme Court
recently addressed this very question in discussing the duty of a brand-name drug manufacturer and ruled
that the law allowed a manufacturer to unilaterally update a label, without waiting for FDA preapproval.
T.H. v. Novartis Pharmaceuticals Corp,, (2017) 4 Cal.5th 145, 159, 407 P.3d 18226 Cal.Rptr.3d 336.
PLAINTIFFS’ OPPOSITION TO DEFENDANT’S DEMURRER
5

324

Aff? 1Z
1

In her TAC, Ms. Mize alleges that “Mentor failed to report adverse events from the studies it was

2

required to conduct [and] had Mentor complied with its obligation to report this newly acquired

3

information, [this] information [] would have been provided to the FDA and would have been available

4

to Mize’s treating physicians, who would have communicated that information to Mize. These allegations

5

are sufficient at the demurrer stage.

6

Coleman’s failure to warn claim based on Medtronic’s failure to file adverse event reports with

7

the FDA is not subject to express or implied preemption. Mentor inexplicably asserts that in Coleman the

8

court mandated that “to prevail on failure-to-report claim, plaintiff must show that adverse events would

9

have reached her doctor and prevented her injury.” This assertion is incorrect and the actual holding in

10

Coleman supports the claim made in the TAC that a claim based on the failure to file adverse event reports

11

with the FDA is not subject to express or implied preemption. Coleman at 428.

12

While the Coleman court noted that the plaintiff would “ultimately” have to prove that a different

13

warning would have reached the treating physician in time to prevent his injury, it found this was not the

14

burden at the demurrer stage.4 “However, at this stage of the proceedings, taking the allegations of the

15

complaint as true, Coleman has alleged facts sufficient to state causes of action in strict liability and

16

negligence based on Medtronic’s failure to warn.” Coleman at 429-30. The remainder of Mentor’s

17

arguments seeking to place burdens on Ms. Mize are equally flawed and she has alleged facts sufficient

18

to present a claim for failure to warn.
Plaintiffs’ Manufacturing Defect Claim is Sufficiently Pled

19

C.

20

In its argument related to the claims for manufacturing defects, Mentor again ignores the binding

21

decision in Coleman and instead seeks to rely on decisions from federal courts which are not controlling.

22

Mentor does not appear to dispute that a claim of manufacturing defect would be a “parallel” claim which

23

would not be subject to express or implied preemption. Instead it again focuses on the incorrect position

24

that Ms. Mize has not alleged sufficient “facts” to support this claim. These arguments are unpersuasive,

25

misstate the facts alleged and are contrary to the holding in Coleman.

26
27
28

4 Mentor incorrectly asserts that “Plaintiff has acknowledged her pleading burden” by citing to a portion
of the transcript from a prior hearing. Demurrer at p. 8. That discussion merely acknowledged the
evidentiary burden which Ms. Mize will ultimately have to satisfy to prevail on this claim. That burden is
inapplicable at the demurrer stage.
PLAINTIFFS’ OPPOSITION TO DEFENDANT’S DEMURRER
6

325

Aff m
1

As the court noted in Coleman, there is a significant “concern with the concept of dismissing a

2

claim on preemption grounds without at least providing a plaintiff with some opportunity for discovery .”

3

Coleman, 223 Cal. App. 4th at 436 (citing In re Medtronic, Inc., Sprint Fidelis Leads Products Liability

4

Litigation (8th Cir. 2010) 623 F.3d 1200, 1205-06 and Bausch v. Stryker Corp. (7th Cir. 2010) 630 F.3d

5

546, 556-57. The Coleman court adopted the reasoning in Bausch “that claims of negligence and strict

6

liability for a defective product can survive preemption based on general allegations that the company

7

violated federal law.” 223 Cal. App. 4th at 436.

8

The conclusion reached in Coleman clearly shows that Mentor’s Demurrer is due to be denied.

9

“In light of the reasoning in Sprint Fidelis and Bausch we conclude that it is premature to determine

10

whether Coleman has alleged a state law requirement that is parallel to federal requirements so as to

11

survive preemption. At the pleading stage, we can only conclude that the complaint alleges sufficient facts

12

to state a cause of action for manufacturing defect, the issue of preemption will necessarily be addressed

13

after Coleman has some opportunity to conduct discovery.” 223 Cal. App. 4th at 436.

14

Mentor asserts that “manufacturers of investigational devices [] are exempt from compliance with

15

virtually all current good manufacturing practice ("cGMP") requirements in the FDA's Quality System

16

Regulation.” Demurrer at p. 14. However, Mentor fails to advise the Court of the numerous requirements

17

which did govern its conduct during the IDE process.5

18

To obtain IDE approval, a manufacturer must submit an application to FDA containing: (1) a

19

complete report of prior device investigations; (2) a detailed description of the manufacturing procedures

20

and quality controls used in device production; (3) copies of all device labeling; and (4) detailed

21

information about the proposed clinical investigation including, an analysis of all risks involved” and “a

22

full set of written procedures for monitoring the investigation, including record and report maintenance.

23

21 U.S.C. § 360j(gX3); 21 C.F.R. §§ 812.20, 812.25, 812.27.

24

approved, the FDA prohibits any deviation from the investigational plan, design, manufacturing

25

techniques, clinical protocol, warnings or consent form which could potentially affect clinical subjects

Once the IDE application has been

26
27
28

5 Mentor cites to Evraets v. Intermedics Intraocular, Inc., 29 Cal. App. 4th 779 (1994), however that case
is inapposite as it concerned intraocular lenses which are expressly exempted from federal misbranding
requirements, registration requirements, performance standards, premaiket approval requirements, record
and reporting requirements and other federal requiremnents. (21 U.S.C. § 360j(g); 21 C.F.R. § 813.1).
PLAINTIFFS’ OPPOSITION TO DEFENDANT’S DEMURRER
7

326

1

unless the FDA first approves the change. See, Robinson v. Endovascular Techs., Inc., 190 Cal. App. 4th

2

1490, 1494 (Cal. Ct. App. 2010) (citing 21 C.F.R. § 812.35).

3

As noted by the court in Bausch, courts “must keep in mind that much of the product-specific

4

information about manufacturing needed to investigate such a claim fully is kept confidential by federal

5

law,” and that as such, “formal discovery is necessary before a plaintiff can fairly be expected to provide

6

a detailed statement of the specific bases for her claim.” 630 F.3d 546, 558. This is particularly applicable

7

to cases involving IDE products, as information regarding the manufacturing process which the applicant

8

was required to follow is confidential and not publicly available.

9

The analysis set forth in Killen v. Stryker Spine, No. 11-1508, 2012 WL 4498865 (W.D. Penn.

10

Sept. 28, 2012) (“Killen”) is very instructive on this point. As that court reasoned, when ruling on a an

11

argument similar to the one raised by Mentor in the present case, “it is disingenuous to identify the parallel

12

claim exception to the Medical Device Act Amendments of 1976 (“MDA”) exemption as articulated in

13

Riegel v. Medtronic, Inc., 552 U S. 312, 128 S.Ct. 999, 169 L.Ed.2d 892 (2008), but foreclose a plaintiff

14

any opportunity to prove the exception.” Id. at *3. The court quoted with approval from Burgos v. Satiety,

15

No. 10-CV-2680, 2011 WL 1327684 (E.D.N.Y. Apr. 5, 2011)6: “[Plaintiffs alleging state-law parallel

16

claims based on a violation of a manufacturer’s agreement with the FDA often suffer from a unique

17

disadvantage: the agreements (including IDEs) that would provide the necessary factual specificity

18

are confidential, and available only to the defendants and the FDA. [A] plaintiffs pleading burden

19

should be commensurate with the amount of information available to them. Other courts have similarly

20

observed that it would be an injustice to penalize a plaintiff for alleging, through no fault of her own, what

21

turned out to be insufficient facts about the manufacturing process of a device that caused injury. See

22

Hofts v. Howmedica Osteonics Corp., 597 F.Supp.2d 830 (S.D.Ind.2009); see also Bausch v. Stryker

23

Corp., 630 F.3d 546 (7th Cir.2010).” (Bold added) Id. at *4. The Killen court concluded that because

24

“Plaintiff advanced factual allegations that plausibly suggest the existence of parallel claims, but does not

25

have access to the confidential information to plead more specifically the alleged violation of FDA

26

regulations, the court concludes the pleading standards are satisfied.” Id. at *3. (Bold added).

27

28

6 Mentor acknowledges that the Burgos opinion is instructive and cites it at p. 5 of its Demurrer.
PLAINTIFFS’ OPPOSITION TO DEFENDANT’S DEMURRER
8

327

r

7W. *75
1

As the Burgos court noted, unlike PMA data which is a matter of public record, IDE documentation

2

submitted to the FDA is confidential and not available to the public. Id. at *4. For that reason, the Burgos

3

court found that the plaintiff had alleged facts as specifically as she could, without the benefit of the

4

confidential IDE documentation, and allowed her claims to proceed. Id.

5

Mentor seeks to place an impossible burden on Ms. Mize by arguing that she must plead more

6

specific facts to state a manufacturing claim, knowing that the information which it alleges Ms. Mize

7

should have included is confidential and known only to Mentor and the FDA. Adopting the reasoning of

8

Mentor would in insulate it from ever being subject to a claim related to the manufacturing process, as no

9

plaintiff can allege facts based on information which is confidential.

10

Mentor is also incorrect in its assertion that references to cGMP are inappropriate in a case

11

involving an IDE product. As noted by the court in Killen, a plaintiff may cite to cGMP’s to “set forth a

12

plausible claim of what [the IDE] requirements were [as] before discovery, she cannot determine what

13

requirements the FDA actually imposed on defendant in the IDE approval process because that

14

information is confidential.” Id. at *1. As that court correctly reasoned: “claims, therefore, are not

15

preempted to the extent that requirements imposed by the FDA [] during the IDE approval process were

16

the same as the requirements imposed by the CGMPs.” Id.

17

D.

18

In Coleman, the court held that the plaintiff had “alleged facts sufficient to state causes of action

19

in [] negligence based on Medtronic’s failure to warn.” Id. at 431. In so ruling, the court cited with

20

approval to the decision of the Ninth Circuit in Stengel.7 The Coleman court reasoned that “California

21

recognizes the applicability of negligence per se in a broad range of scenarios, including violation of

22

federal law.” Id. at 434. After analyzing California law on negligence per se, the Coleman court

23

concluded that “Medtronic does not present a persuasive argument as to why a negligence claim resting

24

on a theory of negligence per se would be subject to preemption. Because Coleman’s negligence claim

25

based on Medtronic’s failure to file adverse event reports is cognizable under California law and is parallel

26

to federal requirements, he may proceed on this theory.” Id.

Plaintiffs’ Negligence and Negligence Per Se Claims are Sufficiently Pled

27

28

7 The Coleman court acknowledged that Stengel was not binding on it, but found its reasoning to be very
persuasive. Id. at 429-30.
PLAINTIFFS’ OPPOSITION TO DEFENDANT’S DEMURRER
9

328

APf. nu
1

The court went further and held:

“[w]e conclude that Coleman’s negligence claim is not

2

preempted. The claim is rooted in traditional state tort law and exists regardless of the FDCA and its

3

regulations because the manufacturer of a medical device owes a duty of reasonable care to the consumer

4

of such a device even in the absence of FDA regulations.” Id. at 435.

5

E

6

For the foregoing reasons, Plaintiffs respectfully request that the Court deny Defendant’s

7

Demurrer. However, if the Demurrer is sustained any of the causes of action, Plaintiffs request an

8

opportunity to amend consistent with the facts stated here. If the Court believes that some elements of

9

Plaintiffs’ claim are inadequately pleaded, leave to amend should be granted so that any technical defect

10

The Court Should Allow Amendment to Cure and Pleading Defect

can be cured.
Respectfully submitted.

11
12

Dated: June 27, 2018

LENZE LAWYERS, PLC

13

G?

14
15

16

By:
JENNIFER A LENZE
Attorney for Plaintiffs

17
18
19
20
21
22
23
24
25
26
27
28
PLAINTIFFS’ OPPOSITION TO DEFENDANT’S DEMURRER
10

329

